<html>
<title> - DISMANTLING IRAN'S NUCLEAR WEAPONS PROGRAM: NEXT STEPS TO ACHIEVE A COMPREHENSIVE DEAL</title>
<body><pre>[Senate Hearing 113-677]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-677
 
                   DISMANTLING IRAN'S NUCLEAR WEAPONS
                     PROGRAM: NEXT STEPS TO ACHIEVE
                          A COMPREHENSIVE DEAL

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                        U.S. GOVERNMENT PUBLISHING OFFICE
95-460 PDF                  WASHINGTON : 2015                        
               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
               
               
               
               
               
               
               
               COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

David Albright, president, Institute for Science and 
  International Security, Washington, DC.........................     5
    Prepared statement...........................................     7
    Graphs and annex submitted with David Albright's prepared 
      statement..................................................    63
Hon. Bob Corker, U.S. Senator from Tennessee.....................     3
Dr. Michael Doran, senior fellow, Hudson Institute, Washington, 
  DC.............................................................    18
    Prepared statement...........................................    20
Hon. Robert Menendez, U.S. Senator from New Jersey...............     1
Dr. Gary Samore, executive director for research, Belfer Center 
  for Science and International Affairs, Harvard Kennedy School 
  of Government, Cambridge, MA...................................    23
    Prepared statement...........................................    24

                                 (iii)

  


  DISMANTLING IRAN'S NUCLEAR WEAPONS PROGRAM: NEXT STEPS TO ACHIEVE A 
                           COMPREHENSIVE DEAL

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:45 p.m, in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Murphy, Kaine, Markey, Corker, 
Risch, Johnson, Flake, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing will come to order.
    First of all, let me apologize to my colleagues as well as 
to our panelists. We are still dealing with the aftermath of 
Superstorm Sandy in New Jersey and in the New Jersey-New York 
region, and we had the Administrator of FEMA in a meeting on 
some of the critical issues that seem still not to be resolved. 
So it just got extended a little longer than I thought. So I 
apologize to everybody.
    Today we have an expert panel to provide an assessment of 
the status of the P5+1\1\ talks and the likelihood of reaching 
a complete political framework for a comprehensive deal in the 
next 4 months. I am particularly interested in your views on 
whether reaching a deal is simply a matter of time or if there 
has been a fundamental shift in Iranian thinking that makes a 
deal 4 months from now more likely than in the past 12.
---------------------------------------------------------------------------
    \1\ [The P5+1 is made up of the five permanent members of the 
United Nations Security Council (China, France, Russia, the United 
Kingdom, and the United States), plus Germany.]
---------------------------------------------------------------------------
    While I believe the administration's diplomatic efforts to 
terminate Iran's illicit nuclear program should be commended, I 
am concerned that Iran has not demonstrated a sincere interest 
in reaching agreement and has used these talks to chip away at 
our positions, beginning with the concessions on enrichment in 
the Joint Plan of Action.
    Given continued Iranian intransigence in the talks, the 
failure to conclude a final deal by November 24 falls squarely 
on Iran. Yet, for over 1 year, we remain trapped in the same 
fruitless, cyclical narrative which has us conceding our 
positions, transforming the Arak reactor rather than 
dismantling it, converting Fordow for some alternate use rather 
than closing it, and disconnecting centrifuges rather than 
destroying them. And perhaps more significantly, Iran is not 
budging on full access to questionable sites and the duration 
of the agreement.
    I understand that the P5+1 members want to put a year on 
the breakout clock, but I am not convinced a year is enough if 
we leave the majority of Iran's nuclear infrastructure in place 
and give up the only leverage we have by providing sanctions 
relief. The 1-year alarm will give us time to respond, but our 
only option at that point will likely be a military option. In 
my view, to suggest that we can quickly or easily rebuild the 
sanctions regime or replicate the economic pressure currently 
facing Iran is a false narrative.
    For me, this equation is simple. Iran must make up its mind 
about what is more important: its nuclear weapons program or 
the welfare of its people. And clearly for the last year, Iran 
has not felt a need to make that decision.
    Right now, we are playing right into the Iranian narrative. 
So while they have maximized their demands at the negotiating 
table, we seemed to have minimized ours with no consequences. 
This is a worst case scenario. It is extremely dangerous for 
global nonproliferation imperatives and for regional stability 
and could leave Iran as a nuclear threshold state.
    At the end of the day, if no deal is reached by March 24, 
congressional action to authorize prospective sanctions may 
provide the leverage we need to prevent Iran from becoming a 
nuclear weapons state.
    Iran's nuclear weapons ambitions and its continued 
obfuscation at the negotiating table have raised alarms 
throughout the Middle East and the international community. The 
risk of a nuclear arms race in the region is not hypothetical. 
We are seeing the repercussions of permitting Iran to retain an 
enrichment program resonate in the region, and in our 1-2-3 
negotiations with other countries who are asking why they need 
to accept a no-enrichment standard when Iran will be allowed to 
enrich.
    For me, the time has come to ask whether repeated 
negotiation extensions, coupled with sanctions relief in the 
billions of dollars, will ever result in a comprehensive deal. 
Iran benefits from successive rounds of unfreezing of assets 
abroad and has not felt the need to make any real concessions 
beyond the requirements of the interim agreement.
    The assumption seems to be that another extension will 
result in a good deal, and all we have to do is continue 
negotiating, putting more time on the nuclear breakout clock. 
My own perspective is that more time will not make a difference 
on this. The Ayatollah has come to the fundamental decisions 
that are essential for being able to strike such a deal. 
Tehran's desire for a nuclear program has not changed, and it 
is unlikely to change in my view under the present set of 
circumstances. Iran is negotiating because it wants economic 
relief, and it is betting that more time on the clock benefits 
its position.
    I know that there are those who suggest that, well, we 
really have not lifted the sanctions. The sanctions regime is 
largely in place. Well, the Iranian economy is rebounding. 
There is greater confidence. There is also a view, I think, 
that the Iranians have that there is no credible use of force 
threat on the table. And if you keep coming toward my position 
in a negotiation as I sit there, then I want to sit there as 
long as I can because it keeps looking better and better to me. 
And that is my sense of where we are at today. To hear that we 
have some significant progress, I do not understand why it 
takes 7 months if we are on the threshold of making decisions 
that can be an acceptable deal to be brought to the United 
States and the international community.
    So what I would like to hear from the witnesses as 
specifically and directly as possible is how we change the 
environment surrounding the talks and have a set of 
circumstances and conditions in which Iran is felt compelled to 
get to a final deal.
    The bottom line is from my perspective I continue to 
believe that we have leverage in this negotiation but leverage 
that is unused is leverage that is meaningless.
    With that, I would like to recognize the distinguished 
ranking member for his comments, Senator Corker.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman. I appreciate 
you calling this timely hearing.
    I want to thank the witnesses for being here. I know we 
have worked around some logistical issues, and it looks like it 
worked out perfectly actually.
    I would also like to say that I know that we are going to 
have a hearing tomorrow, a little meeting tomorrow afternoon, a 
smaller meeting. But we still do not have any language at all 
relative to what this extension even says. I think most of it 
probably is like it has been, but we really do not have any 
insight into that. And so, where we are is what many of us were 
concerned about on the front end, and that is it looks like we 
may end up with a series of rolling extensions.
    If you look at the history of all of this--and I think 
Henry Kissinger does a great job in his latest book really 
referring to this issue we are talking about today. But the 
longer Iran waits, things continue to get better and better and 
better for them. And I know our chairman outlined that today. 
But I will just say we have gone from turning Arak into a light 
water reactor--and by the way, this is based on what we 
understand. Again, we have not really seen anything in writing. 
But turning Arak into a light water reactor to allowing it to 
be a modified heavy water reactor, from shuttering Fordow to 
letting it continue as a research facility, from dismantling 
centrifuges to unplugging them, and from demanding full 
disclosure on possible military dimensions of their nuclear 
program to accepting only transparency at the margins. And when 
we have the IAEA having difficulty today even getting Iran to 
comply with information, obviously that gives great concerns. 
And obviously the issue of just their effect on the region, its 
effect right now on what we are doing in Syria--all of these 
things lead one to be very concerned about where we are.
    And I know that we are all going to be looking at how we 
might play a role. I know the chairman has offered some 
legislation. Others have looked at ways of Congress affecting 
the outcome here.
    But I just want to close with this. As we sit back and 
think about these negotiations, I think many of us thought we 
would start with a--we would end up with a 20-year agreement 
where you had some meaningful length of time that whatever you 
agreed to would be in place and that we would understand the 
military dimensions before any agreement was reached--which 
would allow you to have some insight into the IRGC [Iranian 
Revolutionary Guard Corps] and what their activities have 
been--which obviously this agreement is not going to include.
    But when you think about it, we are talking double digits. 
Knowing the administration the way most of us do, that probably 
means 10 years, the first double digit. Iran is talking 5 
years. My guess is as they sit and wait, the administration may 
be leaning toward a 7- to 8-year agreement. And so when you 
think about it, all of this, this incredible regime that our 
chairman and so many of us have worked on to put in place, will 
be totally dissipated, the way the administration is now going, 
over to a 7- to 8-year period. They then will be a valid member 
of the NPT community, a valid member. We will lose the insights 
into the possible covert dimensions.
    And it really does appear we are going to a place where we 
really are not getting anything. And of course, their strategy 
is they are hopeful that this will happen and that over time 
they will be in a place--by the way, we are not dealing with 
any of the delivery systems in this agreement. So they have the 
ability during this 7- to 8-year period to continue to develop 
deliver systems. We are not dealing with that. So from their 
standpoint, it puts them in a position, when we are not in the 
same place, to be in a stronger place themselves. Our position 
is we are hoping--hoping--that somehow there is a difference of 
viewpoint at the regime level. But when you think about where 
we are, it is really not a good place.
    And so I do hope that we as a committee, I hope that 
Congress will figure out the appropriate way to give the 
administration leverage to really strengthen an agreement that 
already has gone way down a path that I think is very unhealthy 
for our country.
    Mr. Chairman, thank you for this hearing. I look forward to 
our outstanding private witnesses and to the questions that 
come after.
    The Chairman. Thank you, Senator Corker.
    Just for the record, we did invite the administration to 
send us a witness for public purposes, and they declined saying 
that they would only send us a witness in a secured setting. I 
will say that at the end of the last round and the pursuit of 
an extension, we had Wendy Sherman here talking about the 
parameters of that. I do not know what has changed so 
dramatically that we could not have any public setting, 
understanding there would be elements of that that would only 
be appropriate to discuss in a secured setting, that we could 
not have a broader discussion about what we hope to achieve, 
what we are trying to achieve, where we are at in very broad 
terms. But that is the administration's decision. Hence, we are 
only pursuing today a private but distinguished panel 
nonetheless. So we appreciate all of you being here.
    Let me introduce you. David Albright, the president of the 
Institute for Science and International Security. Mr. Albright 
is no stranger to the committee. He has been here several 
times, and we welcome you back and the insights you provide for 
us. Dr. Michael Doran, who is a senior fellow at the Hudson 
Institute; and Dr. Gary Samore, who is the executive director 
for research at the Belfer Center for Science and International 
Affairs at Harvard's Kennedy School.
    And with that, I will remind you all that your full 
statements will be included in the record, without objection. 
If you can try to summarize in about 5 minutes or so, we would 
appreciate it so we can enter into a dialogue with you where 
many of the elements of your statement, I am sure, will be 
discussed. And with that, we will recognize Mr. Albright first.

 STATEMENT OF DAVID ALBRIGHT, PRESIDENT, INSTITUTE FOR SCIENCE 
           AND INTERNATIONAL SECURITY, WASHINGTON, DC

    Mr. Albright. Mr. Chairman, Ranking Member Corker, and 
other esteemed Senators, thank you for inviting me again to 
testify. I view your work here extremely valuable.
    Also, this is a very appropriate time to step back and take 
stock of the efforts to achieve a comprehensive agreement. And 
I think I should make clear from the beginning, I mean, for 
people like myself, the main problem, and the reason for the 
two extensions, is Iran's refusal to make the necessary 
concessions to obtain a good deal. Many core issues remain 
unresolved.
    Now, as the absence of Wendy Sherman demonstrates, the 
ongoing negotiations for this deal are highly detailed and 
secret, and many technical provisions are being studied and 
proposed. And little of that has been made public.
    Despite that limitation, I would like to talk about some 
things I think can be identified. Some of this will be 
repetitive. So I apologize for that.
    But the primary goal of the comprehensive solution is to 
ensure that Iran's nuclear program is indeed peaceful against a 
background of two decades of Iran deceiving the IAEA about its 
nuclear programs, including military nuclear programs. And this 
long history of deception and violation places additional 
burdens on achieving a verifiable, long-term agreement, 
including the need for any agreement to last for 20 years. I 
think if you look at the work the IAEA has to do, it is not 
going to be done after 7 to 10 years. There is a need for an 
extensive duration for this agreement.
    I think it is also accepted that a good deal should 
increase significantly the time needed to produce enough 
nuclear explosive material for a nuclear weapon, typically 
called the breakout timeline. And U.S. officials have talked 
often about achieving breakout times of 1 year. And to do that, 
I think we are all aware that significant limitations in the 
number of centrifuges will have to occur. Iran is going to need 
to reduce the size of its uranium, natural uranium and low-
enriched uranium stocks, and it is going to have to limit its 
centrifuge R&D program.
    Also to get a sound deal, Iran is going to have to 
verifiably address the IAEA's concerns about Iran's past and 
possibly ongoing work related to nuclear weapons, and it needs 
to do that before a deal is signed or any relief from economic 
or financial sanctions occurs. Now, in the latter case, a deal 
could be signed but it would be followed by an implementation 
period, during which Iran would implement its key commitments, 
including addressing the IAEA's concerns before any key 
economic or financial sanctions are relaxed.
    And of course, the agreement is going to have to include 
verification provisions that go beyond the additional protocol. 
And these supplementary provisions, which I have outlined more 
in my testimony, and I think you are pretty aware of, are 
needed if the agreement is to provide assurances about the 
absence of secret nuclear activities and facilities. One of the 
major worries is that in the future Iran will seek to build a 
secret gas centrifuge plant or other nuclear facilities.
    One condition that actually has evolved and that was not 
expected I think is the recognition that U.N. Security Council 
sanctions on proliferation-sensitive goods will need to 
continue through the duration of the deal, and they will need 
to be enforced rigorously while allowing verified exemptions 
for authorized nuclear programs.
    With adequate limits on Iran's nuclear capabilities and 
activities, combined with intrusive verification, we can be 
guaranteed that whatever path to nuclear weapons Iran may 
pursue in the future, its efforts will be visible and time-
consuming with little chance of success. However, without these 
limitations on Iran's nuclear programs and expanded 
verification conditions, a long-term deal will likely fail or 
exasperate the threat from Iran.
    Unfortunately, I have to say that of the conditions I have 
stated, Iran has essentially rejected all of them and has not 
been willing to even come, I would say, even half way to 
meeting those conditions. And I must say I am not an Iran 
expert. I think it is almost anyone's guess whether Iran will 
make the necessary concessions by March 25 to seal a good deal. 
And the basic problem remains that the sanctions have gotten 
Iran to the negotiating table but have not gotten Iran to make 
the necessary concessions. And their internal political system 
and their commitments to nuclear make you wonder whether they 
are actually interested in the kind of deal the United States 
feels it needs.
    Now, a risk to the United States is that the negotiations 
get drawn into proposing compromise after compromise while Iran 
just says no. Today it is more suitable for the United States 
to stick to its core demands that can ensure a good deal.
    And I think, Mr. Chairman and Ranking Member Corker, you 
outlined some problems, some concessions that essentially have 
been made, and I would just like to highlight the one where the 
administration, based on public statements, has gone from 
wanting 1,500 IR-1 centrifuges in place in a final deal to 
having up to 4,000 to 5,000 centrifuges. Now, this may be 
justified. Such an increase in the allowable centrifuges would 
be accompanied by Iran committing to significant reductions in 
its low-enriched uranium stock, and that would be demonstrated 
by shipping that material out of Iran. And those two steps 
combined, increasing centrifuges, drastically lowering the low-
enriched uranium stocks, could preserve a 1-year breakout time. 
But again, Iran has been unwilling to entertain either of those 
concessions. And I would say it is going to be hard for the 
United States, even if Iran is unwilling to entertain those 
concessions, to go back to arguing that it is only going to 
accept 1,500 centrifuges.
    Now, I think personally the United States has developed 
enough creative compromises and discussed them with Iran. It is 
time to simply wait for Iran to make a realistic offer. The 
United States can then say yes or no. More importantly, it can 
start to more realistically evaluate if Iran is even willing to 
make a good deal.
    While waiting, one signal the United States should send is 
that it is more than willing to reimpose suspended sanctions 
and move to impose new ones if an adequate deal is not 
forthcoming.
    Thank you.
    [The prepared statement of Mr. Albright follows:]

                  Prepared Statement of David Albright

    Iran and the P5+1 group of countries (the United States, Britain, 
France, Germany, Russia, and China) have once again extended their 
negotiations in pursuit of a final, comprehensive solution on Iran's 
nuclear program under the Joint Plan of Action (JPA). The November 2013 
JPA set out a process aimed at limiting Iran's nuclear program in 
exchange for relief from economic and financial sanctions. On a 
separate but linked negotiating track, Iran and the International 
Atomic Energy Agency (IAEA) have been working on a step-wise approach 
to address the IAEA's concerns, particularly those about the alleged 
past and possibly on-going military dimensions (or so-called PMD) of 
Iran's nuclear program. However, this process has stalled and Iran has 
become increasingly resistant to addressing the IAEA's concerns. 
Whether and how Iran complies with the IAEA's concerns is currently 
being played out in the context of P5+1/Iran negotiations.
    Despite some progress in the negotiations, much reportedly remains 
to be settled. The primary goal of a comprehensive solution is to 
ensure that Iran's nuclear program is indeed peaceful, against a 
background of two decades of Iran deceiving the IAEA about its nuclear 
programs, including military nuclear programs. This long history of 
deception and violations places additional burdens on achieving a 
verifiable long term agreement, including the need for any agreement to 
last for about 20 years.
    A good deal should increase significantly the time needed to 
produce enough nuclear explosive material for a nuclear weapon, 
typically known as a breakout timeline. The United States reportedly 
often talks about achieving breakout times of 1 year. To achieve such a 
breakout time, Iran will need to limit specific, existing nuclear 
capabilities, including reducing significantly the number of its 
centrifuges and the size of its uranium and low enriched uranium 
stocks, and limiting its centrifuge R&D programs.
    A sound deal will also require Iran to verifiably address the 
IAEA's concerns about its past and possibly ongoing work on nuclear 
weapons, which means Iran must address those concerns in a concrete 
manner before a deal is finalized or any relief from economic or 
financial sanctions occurs. In the latter case, a deal could be signed 
and followed by an implementation period during which Iran would 
implement its key commitments, including addressing the IAEA's 
concerns, before key economic and financial sanctions are relaxed.
    The agreement will need to include verification provisions that go 
beyond the IAEA's Additional Protocol. These supplementary provisions 
will need to create a critical baseline of information, including how 
many centrifuges Iran has made, how much natural uranium it has 
produced and is producing annually, and its inventory of raw materials 
and equipment for its centrifuge program. This baseline is necessary if 
the agreement is to provide assurances about the absence of secret 
nuclear activities and facilities.
    United Nations Security Council sanctions on proliferation 
sensitive goods will need to continue. They will need to be enforced 
rigorously, while allowing verified exemptions for authorized nuclear 
programs.
    The annex to my testimony contains a more detailed discussion of 
key necessary provisions in a long-term agreement.
    Without these limitations on Iran's nuclear programs and expanded 
verification conditions, a long-term deal will likely fail or 
exacerbate the threat from Iran. However, an adequate agreement is 
possible and within reach of the United States and its negotiating 
partners.
                         adequate reaction time
    A key goal of the negotiations is to ensure that any deal provides 
adequate reaction time, namely, adequate time to respond diplomatically 
and internationally to stop Iran if it does decide to renege on its 
commitments and build nuclear weapons. According to Under Secretary of 
State Wendy Sherman, ``We must be confident that any effort by Tehran 
to break out of its obligations will be so visible and time-consuming 
that the attempt would have no chance of success.'' \1\ That goal must 
be at the core of any agreement.
---------------------------------------------------------------------------
    \1\ ``Iran's Current Enrichment Level Not Acceptable: US,'' Agence 
France Presse. September 17, 2014.
---------------------------------------------------------------------------
    Obtaining adequate reaction time requires that limitations are 
placed on Iran's sensitive nuclear programs, adequate verification is 
ensured, and concrete progress has been demonstrated that Iran will 
address the IAEA's concerns about its past and possibly ongoing nuclear 
weapons efforts. Because of Iran's long history of noncompliance with 
its safeguards obligations, a deal must last long enough, on order of 
20 years, so that there is little risk of Iran seeking nuclear weapons.
                covering all breakout paths to the bomb
    If Iran were to make the political decision to produce a nuclear 
weapon after signing a comprehensive nuclear deal, it is not possible 
to guess how it may proceed. Iran may use its declared nuclear 
facilities to secretly make enough highly enriched uranium (HEU) or 
plutonium for a bomb or it may build covert sites to make the HEU or 
separate the plutonium. Given that Iran has such a long history of 
building and conducting secret nuclear activities, U.S. negotiators 
need to take a broad view and secure a deal that makes all of Iran's 
paths to the bomb time consuming and risky.
    Some have advocated that only the covert route to nuclear weapons 
is likely. Those who favor this view often rely on the U.S. 2007 
National Intelligence Estimate, ``Iran: Nuclear Intentions and 
Capabilities.'' It concluded, ``We assess with moderate confidence that 
Iran probably would use covert facilities--rather than its declared 
nuclear sites--for the production of highly enriched uranium for a 
weapon.'' That assessment may have been true in 2007 when Iran had few 
centrifuges, and in fact, we now know, it was building a covert 
centrifuge plant at Qom called the Fordow facility. However, that 
statement no longer holds true.
    At this point in time, it is not certain that Iran would rely 
entirely on the covert pathway option for fear of getting caught again 
as it did in building the formerly secret Fordow facility, and long 
before it has enough weapon-grade uranium or separated plutonium for 
nuclear weapons. The revelation about the Qom enrichment plant was 
highly damaging to Iran's international credibility. For example, 
Russia became much more critical of Iran after this revelation, and the 
creation of damaging sanctions became easier. Therefore, Iran is 
unlikely to want to repeat that mistake without greater assurance of 
being able to successfully hide a covert program, something it likely 
lacks now and will not gain anytime soon if the long-term deal is 
carefully crafted by the United States and its partners.
    Iran is more likely today to choose a safe route to preserving and 
further developing a capability to produce fissile material for a 
nuclear weapon. In the case of gas centrifuges, it is likely to seek to 
maintain and increase its capabilities at declared centrifuge sites, 
the associated centrifuge manufacturing complex, and centrifuge R&D 
facilities. It would view this path as the preferred one, because it 
can simply and legitimately claim that all its activities are civil in 
nature, even if it is actually hiding the goal of eventually seeking 
nuclear weapons. If it opts to make nuclear weapons in the future, its 
declared programs could serve as the basis for whatever it does next. 
Then, it could pursue breakout as it deems most appropriate, whether by 
misusing its declared centrifuge facilities, building covert ones, or 
using both paths together.
    Thus, the U.S. goal should be limiting sharply the number of 
centrifuges at declared sites and constraining centrifuge manufacturing 
and R&D activities, both of which could help outfit covert programs. 
This approach would greatly diminish Iran's ability to break out to 
nuclear weapons. If Iran decides to build nuclear weapons in the 
future, it would have to start from this relatively low level of 
capability, regardless of the path it would actually select in the 
future. The long timeline to acquire enough HEU for a weapon may turn 
out to deter Iran from even trying.
    This strategy depends on creating a robust verification regime able 
to detect covert nuclear activities or a small, hidden away centrifuge 
plant. Iran has assuredly learned from its mistakes in hiding the Qom 
enrichment site. In fact, it has likely developed more sophisticated 
methods to hide covert nuclear activities. But robust verification, 
which requires measures beyond the Additional Protocol, can provide 
assurance that Iran is not hiding centrifuge plants or other nuclear 
capabilities in the future. These additional verification measures 
would ensure that Iran would have a very hard time creating or 
maintaining a covert program outside of its declared programs after 
signing a long-term agreement.
    It is wiser to anticipate and block all of Iran's potential future 
paths to the bomb, rather than guessing and choosing the wrong one.
 quantifying adequate response time: the role of breakout calculations
    One assured way to quantify the concept of adequate reaction time 
when discussing limitations on uranium enrichment programs is to link 
timely reaction time to breakout time. Breakout time is the amount of 
time Iran would need to create enough weapon-grade uranium for a single 
nuclear weapon, if it reneged or cheated on the agreement. Additional 
time would be needed to fabricate the nuclear weapon itself but the 
creation of enough fissile material (weapon-grade uranium or separated 
plutonium) is widely accepted as the ``long pole in the tent'' of 
making a nuclear weapon and the only part of this process susceptible 
to reliable discovery and subsequent pressure. Other nuclear 
weaponization activities, such as producing high explosive components, 
electronic components, or uranium metal parts, are notoriously 
difficult to detect and stop. By focusing on breakout time--as defined 
above--the agreement would grant the international community a 
guaranteed period of time to react and prevent Iran's success. The 
longer the breakout time, the more reaction options we have. A deal 
that enshrines a short breakout time is risky because if Iran were to 
make the decision to make a weapon, military intervention would be the 
only available response.
    Thus, time for Iran's ability to produce enough weapon-grade 
uranium for a bomb must be sufficiently long to allow the international 
community to prepare and implement a response able to stop it from 
succeeding. Typically, the U.S. negotiators have sought limitations on 
Iran's nuclear programs that lead to breakout times of 12 months. (ISIS 
has taken the position that under certain conditions 6 months would be 
adequate.) To better understand the implications of breakout, we have 
prepared a range of breakout calculations under a wide variety of 
current and posited centrifuge capabilities that in essence convert the 
reaction time; i.e., breakout time, into an equivalent number of 
centrifuges and stocks of low enriched uranium.
    One of the calculations considers an important case, namely the 
current, frozen centrifuge program under the JPA where Iran retains its 
existing, installed IR-1 centrifuges and no stocks of near 20 percent 
LEU hexafluoride. In this case, the breakout time is about 2 months, 
which is the same as public U.S. Government estimates. If the number of 
IR-1 centrifuges were reduced to about 10,000, breakout time would grow 
to about 3 months, according to the ISIS estimates.
    To achieve a breakout time of 12 months in the case that stocks of 
3.5 percent LEU are not limited to relatively small quantities, 
calculations point to a centrifuge program of about 2,000 IR-1 
centrifuges. If stocks of LEU are limited significantly, these 
centrifuge quantities can increase but, as is discussed below, the 
total number of allowed centrifuges would not increase that much--only 
to about 4,000-5,000 IR-1 centrifuges. A major problem is that the 
centrifuges would continue producing LEU, complicating the effective 
maintenance of a LEU cap.
                      sound negotiating principles
    Beyond technical limitations, the negotiations have shown that the 
principles driving the positions of the P5+1 differ markedly from those 
of Iran. Any deal should satisfy the following principles if it is to 
last:

  <bullet> Sufficient response time in case of violations;
  <bullet> A nuclear program meeting Iran's practical needs;
  <bullet> Adequate irreversibility of constraints;
  <bullet> Stable provisions; and
  <bullet> Adequate verification.

    These principles flow from the effort to ensure that Iran's nuclear 
program is peaceful and remains so. These principles also reflect long 
experience in negotiating arms control and nonproliferation agreements 
and a recognition of the strengths and weaknesses in those agreements 
to date.
    Iran on the other hand has emphasized the principles of cooperation 
and transparency. These principles are predicated on its assertion that 
its word should be trusted, namely its pronouncement that it will not 
build nuclear weapons. These principles also reflect its long-standing 
view that any agreement should have constrained verification conditions 
and minimal impact on its nuclear programs, even allowing for their 
significant growth, despite the current lack of economic or practical 
justifications for such growth. Many of Iran's negotiating positions 
have been rejected because they can be undone on short order, offering 
little practical utility in constraining its future abilities to build 
nuclear weapons. Iran on numerous occasions in the past has shown a 
willingness to stop cooperation with the IAEA and reverse agreed upon 
constraints, sometimes rapidly. A robust and painstakingly built 
international sanctions regime on Iran cannot be lifted in return for 
inadequate and reversible constraints.
    The negotiating process has shown the complexity of any agreement 
able to ensure that Iran's nuclear program will remain peaceful. But by 
sticking to the above sound principles, potential compromises can be 
better evaluated and any resulting deal will be more likely to last.
                          specific provisions
    In the rest of my testimony, I would like to focus on several 
specific provisions or goals necessary to a successful deal. In 
particular, I will discuss the following:

          1. Achieve Concrete Progress in Resolving Concerns about 
        Iran's Past and Possibly Ongoing Nuclear Weapons Efforts.
          2. Maintain Domestic and International Sanctions on 
        Proliferation Sensitive Goods.
          3. Render Excess Centrifuges Less Risky.
          4. Institutionalize a Minimal Centrifuge R&D Program.
          5. Keep Centrifuge Numbers Low and as a Supplementary Measure 
        Achieve Lower Stocks of LEU hexafluoride and oxide.
          6. Beware the concept of ``SWU'' as a Limit.
          7. Ensure Arak Reactor's Changes are Irreversible.
(1) Achieve Concrete Progress in Resolving Concerns about Iran's Past 
        and Possibly Ongoing Nuclear Weapons Efforts
    Despite a great effort over the last year, the IAEA has learned 
little from Iran that has added to the inspectors' ability to resolve 
their concern about Iran's past nuclear weapons efforts and possibly 
ongoing work related to nuclear weapons. Recently, the IAEA has also 
been unable to reach agreement with Iran on how to tackle the remaining 
military nuclear issues. The IAEA has repeatedly emphasized that the 
military nuclear issues need to be addressed and solved.
    For years, the inspectors have unsuccessfully asked the Islamic 
Republic to address the substantial body of evidence that Iran was 
developing nuclear weapons prior to 2004 and that it may have continued 
some of that, or related work, afterward, even up to the present. 
Before a deal is implemented, concrete progress is needed on the 
central issue of whether Iran has worked on nuclear weapons and is 
maintaining a capability to revive such efforts in the future.
    Supreme Leader Ali Khamenei often declares that nuclear weapons 
violate Islamic strictures. His denials are not credible. The United 
States, its main European allies, and most importantly the IAEA itself, 
assess that Iran had a sizable nuclear weapons program into 2003. The 
U.S. intelligence community in the 2007 National Intelligence Estimate 
(NIE) agreed: ``We assess with high confidence that until fall 2003, 
Iranian military entities were working under government direction to 
develop nuclear weapons.'' The Europeans and the IAEA have made clear, 
the United States less so, that Iran's nuclear weapons development may 
have continued after 2003, albeit in a less structured manner. In its 
November 2011 safeguards report, the IAEA provided evidence of Iran's 
pre- and post-2003 nuclear weaponization efforts. The IAEA found, 
``There are also indications that some activities relevant to the 
development of a nuclear explosive device continued after 2003, and 
that some may still be ongoing.'' To reinforce this point to Iran, the 
United States in late August sanctioned Iran's Organization of 
Defensive Innovation and Research (SPND), which it said is a Tehran-
based entity established in early 2011 that is primarily responsible 
for research in the field of nuclear weapons development. Thus, there 
is widespread evidence and agreement that Iran has worked on developing 
nuclear weapons and that some of those activities may have continued to 
today.
    Addressing the IAEA's concerns about the military dimensions of 
Iran's nuclear programs is fundamental to any long-term agreement. 
Although much of the debate about an agreement with Iran rightly 
focuses on Tehran's uranium enrichment and plutonium production 
capabilities, an agreement that side steps the military issues would 
risk being unverifiable. Moreover, the world would not be so concerned 
if Iran had never conducted weaponization activities aimed at building 
a nuclear weapon. After all, Japan has enrichment activities but this 
program is not regarded with suspicion. Trust in Iran's intentions, 
resting on solid verification procedures, is critical to a serious 
agreement.
    A prerequisite for any comprehensive agreement is for the IAEA to 
know when Iran sought nuclear weapons, how far it got, what types it 
sought to develop, and how and where it did this work. Was this weapons 
capability just put on the shelf, waiting to be quickly restarted? The 
IAEA needs a good baseline of Iran's military nuclear activities, 
including the manufacturing of equipment for the program and any 
weaponization related studies, equipment, and locations. The IAEA needs 
this information to design a verification regime. Moreover, to develop 
confidence in the absence of these activities--a central mission--the 
IAEA will need to periodically inspect these sites and interview key 
individuals for years to come. Without information about past military 
nuclear work, it cannot know where to go and who to speak to.
    The situation today, unless rectified, does not allow for the 
creation of an adequate verification regime. Moreover, the current 
situation risks the creation of dangerous precedents for any 
verification regime that would make it impossible for the IAEA to 
determine with confidence that nuclear weapons activities are not 
ongoing. Adding verification conditions to any deal is unlikely to help 
if the fundamental problem is the lack of Iranian cooperation. The IAEA 
already has the legal right to pursue these questions under the 
comprehensive safeguards agreement with Iran.
    Despite the IAEA's rights under the comprehensive safeguards 
agreement, Iran has regularly denied the IAEA access to military sites, 
such as a site at the Parchin complex, a site where high-explosive 
experiments linked to nuclear triggers may have occurred. Iran has 
reconstructed much of this site at Parchin, making IAEA verification 
efforts all but impossible. Tehran has undertaken at this site what 
looks to most observers as a blatant effort to defeat IAEA 
verification. However, Parchin is but one of many sites the IAEA wants 
to inspect as part of its efforts to understand the military dimensions 
of Iran's nuclear programs. A full Iranian declaration may reveal even 
more sites of concern.
    Iran continues to say no to IAEA requests to interview key 
individuals, such as Mohsen Fakrizadeh, the suspected military head of 
the nuclear weapons program in the early 2000s and perhaps today, and 
Sayyed Abbas Shahmoradi-Zavareh, former head of the Physics Research 
Center, alleged to be the central location in the 1990s of Iran's 
militarized nuclear research. The IAEA interviewed Shahmoradi years ago 
about a limited number of his suspicious procurement activities 
conducted through Sharif University of Technology. The IAEA was not 
fully satisfied with his answers, and its dissatisfaction increased 
once he refused to discuss his activities for the Physics Research 
Center. Since the initial interviews, the IAEA has obtained far more 
information about Shahmoradi and the Physics Research Center's 
procurement efforts. The need to interview both individuals, as well as 
others, remains.
    If Iran is able to successfully evade addressing the IAEA's 
concerns now, when biting sanctions are in place, why would it address 
them later when these sanctions are lifted, regardless of anything it 
may pledge today? Iran's lack of clarity on alleged nuclear 
weaponization, and its noncooperation with the IAEA, if accepted as 
part of a nuclear agreement, would create a large vulnerability in any 
future verification regime. Iran would have clear precedents to deny 
inspectors access to key facilities and individuals. There would be 
essentially no-go zones across the country for inspectors. Tehran could 
declare a suspect site a military base and thus off limits. And what 
better place to conduct clandestine, prohibited activities, such as 
uranium enrichment and weaponization?
    Iran would have also defeated a central tenet of IAEA inspections--
the need to determine both the correctness and completeness of a 
state's nuclear declaration. The history of Iran's previous military 
nuclear efforts may never come to light, and the international 
community would lack confidence that these capabilities would not 
emerge in the future. Moreover, Iran's ratification of the Additional 
Protocol or acceptance of additional verification conditions, while 
making the IAEA's verification task easier in several important ways, 
would not solve the basic problem posed by Iran's lack of cooperation 
on key, legitimate IAEA concerns. Other countries contemplating the 
clandestine development of nuclear weapons will certainly watch Tehran 
closely.
    With a 7-month extension, there is plenty of time for Iran to 
address all the IAEA's outstanding concerns. Moreover, an approach can 
be implemented whereby Iran can choose to admit to having had a nuclear 
weapons program, or at least accept or not publicly dispute a credible 
IAEA judgment that it had one, and allow IAEA access to key military 
sites, such as Parchin, and to critical engineers and scientists linked 
to those efforts. If no such concrete demonstration is forthcoming 
during the extension, a deal should not be signed. If it is, the deal 
should not offer any significant relief from financial and economic 
sanctions until Iran fully addresses the IAEA's concerns.
(2) Maintain Sanctions on Proliferation Sensitive Goods
    A comprehensive nuclear agreement is not expected to end Iran's 
illicit efforts to obtain goods for its missile and other military 
programs. Iran appears committed to continuing its illicit operations 
to obtain goods for a range of sanctioned programs. On August 30, 2014, 
Iranian President Hassan Rouhani stated on Iranian television: ``Of 
course we bypass sanctions. We are proud that we bypass sanctions.'' 
Given Iran's sanctions-busting history, a comprehensive nuclear 
agreement should not include any provisions that would interfere in 
efforts of the international community to effectively sanction Iranian 
military programs.
    The deal must also create a basis to end, or at least detect with 
high probability, Iran's illicit procurement of goods for its nuclear 
programs. Evidence suggests that in the last few years Iran has been 
conducting its illegal operations to import goods for its nuclear 
program with greater secrecy and sophistication, regardless of the 
scale of procurements in the last year or two. A long-term nuclear 
agreement should ban Iranian illicit trade in items for its nuclear 
programs while creating additional mechanisms to verify this ban. Such 
a verified ban is a critical part of ensuring that Iran is not 
establishing the wherewithal to:

  <bullet> Build secret nuclear sites,
  <bullet> Make secret advances in its advanced centrifuge \2\ or other 
        nuclear programs, or
---------------------------------------------------------------------------
    \2\ Aside from the IR-2m and a few other centrifuge models, little 
is known about Iran's next generation centrifuges. Quarterly IAEA 
safeguards reports indicate that Iran has not successfully operated 
next generation centrifuges on a continuous basis or in significant 
numbers since their installation began at the Natanz Pilot Fuel 
Enrichment Plant. This suggests that Iran may be having difficulty with 
aspects of their design or operation. Iran's failure to deploy next-
generation centrifuges in significant quantities is one indication that 
sanctions were effective to slow or significantly raise the costs of 
procurement.
---------------------------------------------------------------------------
  <bullet> Surge in capability if it left the agreement.

    These conditions argue for continuing all the UNSC and national 
sanctions and well-enforced export controls on proliferation-sensitive 
goods. Such goods are those key goods used or needed in Iran's nuclear 
programs and nuclear weapon delivery systems, the latter typically 
interpreted as covering ballistic missiles.
    Sanctions should continue on the listed goods in the UNSC 
resolutions, many of them dual-use in nature, and more generally on 
those other dual-use goods that could contribute to uranium enrichment, 
plutonium reprocessing, heavy water, and nuclear weapon delivery 
systems (see United Nations Security Council Resolution 1929, par. 13). 
The latter is often referred to as the ``catch-all'' provision and 
mirrors many national catch-all requirements in export control laws and 
regulations. In the case of Iran, this provision is especially 
important. Without illicitly obtaining the goods covered by catch-all, 
Iran would be severely constrained in building or expanding nuclear 
sites.
    The P5+1 powers need to manage carefully the transition to a time 
when imports of goods to Iran are allowed for legitimate nuclear and 
later possibly for civilian uses. Many proliferation sensitive goods 
are dual-use goods, which have applications both in nuclear and 
nonnuclear industries and institutions. Currently, the world is on 
heightened alert about Iran's illicit procurements for its sanctioned 
nuclear, missile, and military programs. Routinely, this alert has led 
to the thwarting of many illicit purchases and interdictions of banned 
goods. But as nations enter into expanded commercial and trade 
relationships with Iran, a risk is that many countries will effectively 
stand down from this heightened state of awareness and lose much of 
their motivation to stop banned sales to Iran even if U.N. sanctions 
remain in place. Despite the sanctions and vigilant efforts today, many 
goods now make their way to Iran illicitly that fall below the 
sanctions list thresholds but are covered by the catch-all condition 
that bans all goods that could contribute to Iran's nuclear program. 
The volume of these sales is expected to increase after an agreement 
takes effect and many more of these goods could get through 
successfully. Unless carefully managed, a key risk is that the 
sanctions may not hold firm for the below threshold or catch-all goods. 
Stopping transfers of explicitly banned items may also become more 
difficult as business opportunities increase, and much of the world de-
emphasizes Iran's nuclear program as a major issue in their foreign 
policies and domestic regulations. This could be particularly true for 
China and middle economic powers, such as Turkey, which already have 
substantial trade with Iran and are expected to seek expanded ties. 
Other countries with weak export controls may expand trade as well.
            Verified Procurement Channel for Authorized Nuclear 
                    Programs
    The six powers must carefully plan for these eventualities now and 
include in any agreement an architecture to mitigate and manage 
proliferation-related procurement risks. A priority is creating a 
verifiable procurement channel to route needed goods to Iran's 
authorized nuclear programs. The agreement will need to allow for 
imports to legitimate nuclear programs, as they do now for the Bushehr 
nuclear power reactor.
    A challenge will be creating and maintaining an architecture, with 
a broader nuclear procurement channel, that permits imports of goods to 
Iran's authorized nuclear programs and possibly later to its civilian 
industries, while preventing imports to military programs and banned or 
covert nuclear programs. The UNSC and its Iran sanctions committee and 
Panel of Experts, the IAEA, and supplier states will all need to play 
key roles in verifying the end use of exports to Iran's authorized 
nuclear programs and ensuring that proliferation sensitive goods are 
not going to banned nuclear activities or military programs.
    The creation of the architecture should be accomplished during the 
negotiations of the long-term deal, although its implementation may 
need to wait. It will be important that the architecture, whether or 
not implemented later, be established at the very beginning of the 
implementation of the long-term agreement in order to adequately deal 
with this issue. In essence, the creation of the architecture should 
not be left to later.
    The reason for creating a verified procurement channel is that 
Iran's legitimate nuclear activities may need imports. The 
``modernization'' of the Arak reactor would probably involve the most 
imports, depending on the extent to which international partners are 
involved. A sensitive area will be any imports, whether equipment, 
material, or technologies, which are associated with the heavy water 
portion of the reactor, in the case that the reactor is not converted 
to light water. Another sensitive set of possible imports involves 
goods related to the separation of radionuclides from irradiated 
targets, although goods for reprocessing; i.e., separating plutonium 
from irradiated fuel or targets, would be banned since Iran is expected 
to commit in the long-term agreement not to conduct reprocessing. 
Nonetheless, allowed imports could include goods that would be close in 
capability to those used in reprocessing, since the boundary in this 
area between sensitive and nonsensitive equipment is very thin. These 
goods will therefore require careful monitoring. Iran's centrifuge 
program, if reduced in scale to the levels required for U.S. acceptance 
of a deal, will result in a large excess stockpile of key goods for IR-
1 centrifuges. This stock should last for many years, eliminating the 
need for most imports. Nonetheless, the centrifuge program may need 
certain spare parts, raw materials, or replacement equipment. If Iran 
continues centrifuge research and development, that program may require 
sensitive raw materials and equipment. Needless to say, the goods 
exported to Iran's centrifuge programs will require careful monitoring 
as to their use and long-term fate.
    Iran's nonnuclear civilian industries and institutions may also 
want to purchase dual-use goods covered by the sanctions, but this 
sector should not expect to be exempted from sanctions during the 
duration of the deal or at least until late in the deal. Iran must 
prove it is fully complying with the agreement and will not abuse a 
civilian sector exemption to obtain banned goods for its nuclear, 
missile, or other military programs. With renewed economic activity and 
as part of efforts to expand the high-tech civilian sector, Iranian 
companies and institutions engaged in civilian, nonnuclear activities 
can be expected to seek these goods, several of which would be covered 
by the catch-all condition of the resolutions. Examples of dual-use 
goods would be carbon fiber, vacuum pumps, valves, computer control 
equipment, raw materials, subcomponents of equipment, and other 
proliferation sensitive goods. Currently, these civil industries 
(Iran's petrochemical and automotive industries are two such examples) 
are essentially denied many of these goods under the UNSC resolutions 
and related unilateral and multilateral sanctions. However, if civilian 
industries are to be eventually exempted from the sanctions, this 
exemption must be created with special care, implemented no sooner than 
many years into the agreement, and monitored especially carefully. Iran 
could exploit this exemption to obtain goods illicitly for banned 
activities. It could approach suppliers claiming the goods are for 
civil purposes but in fact they would be for banned nuclear or military 
programs. Such a strategy is exactly what Iran's nuclear program has 
pursued illicitly for many years, including cases where goods were 
procured under false pretenses by the Iranian oil and gas industry for 
the nuclear program. There are also many examples of illicit Iranian 
procurements for its nuclear program where Iranian and other trading 
companies misrepresented the end use to suppliers.
    This architecture covering proliferation sensitive goods should 
remain in place for the duration of the comprehensive agreement. The 
six powers must carefully plan for eventualities now and design and 
implement an architecture that prevents future Iranian illicit 
procurements under a comprehensive agreement.
(3) Render Excess Centrifuges Less Risky
    If Iran accepts a sharp limit on the number of centrifuges that 
would enrich uranium in a comprehensive deal, what about the excess 
centrifuges? If the limit is about 4,000 IR-1 centrifuges, Iran would 
need to dismantle or render unusable over 14,000 IR-1 centrifuges and 
over 1,000 of the more advanced IR-2m centrifuges. These 1,000 IR-2m 
centrifuges are equivalent of about 3,000-5,000 IR-1 centrifuges. Thus, 
Iran would need to eliminate a large fraction of its centrifuge 
program.
    The centrifuges in excess of a limit should ideally be destroyed. 
Otherwise, Iran could reinstall them, building back to its original 
enrichment capacity of over 20,000 swu per year. This restoration of 
capacity would lead to very short breakout times, far less than a year.
    However, rather than focusing on negotiating the destruction of 
excess centrifuges, the P5+1 negotiators appear to be seeking a 
different solution. They have reportedly been focusing on the removal 
and monitored storage of key centrifuge equipment in such a way that 
reinstallation would be difficult and time-consuming. However, 
accomplishing build-back timeframes of 6 to 12 months can be difficult 
to achieve in practice.
    Complicating this approach and highlighting its risks, Iran's 
reneging on a cap in centrifuges and moving to reinstall them may 
happen outside of any overt nuclear weapons breakout. Iran may argue 
that the United States has not delivered on its commitments and build 
back up its number of centrifuges in retaliation. By assuaging the 
international community that it is not breaking out, Iran may make any 
meaningful U.S. response difficult.
    Some analysts, including those at ISIS, have discussed imposing 
essentially what have been called in the North Korean context 
``disablement'' steps, which would not involve the destruction of any 
equipment but delay the restart of installed centrifuges. However, 
ISIS's attempts to define disablement steps on the centrifuge plants 
appear to be reversible in less than 6 months of diligent work. This 
time period applies to proposals to remove the centrifuge pipework from 
the centrifuge plants.
    Moreover, this estimated time for reassembling the centrifuge 
cascades remains uncertain, and it could be shorter. There is no 
practical experience in disabling centrifuge plants; North Korea's 
centrifuge program was not subject to disablement. It needs to be 
pointed out that some U.S. policymakers had a tendency to exaggerate 
the difficulty of undoing North Korean disablement steps imposed at the 
Yongbyon nuclear center on plutonium production and separation 
facilities. In fact, North Korea was able to reverse several of these 
steps relatively quickly. A lesson from the North Korean case is that 
disablement steps are highly reversible and in fact can be reversed 
faster than expected.
    A sounder strategy involves including disablement steps with the 
destruction of a limited, but carefully selected set of equipment. For 
example, the deal could include the destruction of certain key cascade 
equipment, such as valves and pressure or flow measuring equipment. 
Much of this equipment was imported from abroad in violation of 
supplier country export control laws or international sanctions.
    An agreed upon fraction of centrifuges and associated cascade 
piping and equipment should be kept available under monitored storage 
away from the centrifuge plants as spares to replace broken centrifuges 
and equipment. This number would be derived from the current rate of 
breakage which Iran would need to document with the aid of the IAEA. 
However, this rate is relatively well known now, as a result of the 
IAEA's monitoring of Iranian centrifuge manufacturing under the JPA. 
Iran has provided the IAEA with an inventory of centrifuge rotor 
assemblies used to replace those centrifuges that have failed, and the 
IAEA has confirmed that centrifuge rotor manufacturing and assembly 
have been consistent with Iran's replacement program for damaged 
centrifuges. Armed with a reliable breakage rate, the negotiators can 
define the limited stockpile of centrifuges necessary to avoid any 
Iranian manufacturing of IR-1 centrifuges.
(4) Institutionalize a Minimal Centrifuge R&D Program
    Another important limit on Iran's nuclear program aims to ensure 
that an advanced centrifuge R&D program does not become the basis of a 
surge in capability in case a deal fails or of a covert breakout. 
Iran's centrifuge research and development (R&D) program poses several 
risks to the verifiability of a comprehensive deal. Throughout the 
duration of a long-term comprehensive agreement, Iran's centrifuge R&D 
program should be limited to centrifuges with capabilities comparable 
to the current IR-2m centrifuge. The numbers of centrifuges spinning in 
development cascades should be kept to at most a few cascades, and 
these cascades should have limited numbers of centrifuges.
    An open-ended Iranian centrifuge R&D program aimed at developing 
more sophisticated centrifuges than the IR-2m makes little economic 
sense. Iran will not be able to produce enriched uranium competitive 
with that produced by exporting countries such as Russia or URENCO 
during the next several decades, if ever. Therefore, Iran's investment 
in a large centrifuge R&D program would be a waste of time and 
resources. Moreover, the goal of a long-term agreement is to eventually 
integrate Iran into the international civilian nuclear order (even as a 
nonexporting producer of enriched uranium). This integration would 
render mute Iran's claims for self-sufficiency in enriched uranium 
production or for continuing the program out of national pride.
    A long-term agreement should reinforce sound economic principles 
universally accepted in the world's nuclear programs, all of which are 
deeply interconnected through an international supply chain based on 
reactor suppliers and enriched uranium fuel requirements. Building an 
agreement catering to open-ended, economically unrealistic ambitions is 
both unnecessary and counterproductive, and also sets dangerous 
precedents for other potential proliferant states.
    Iran's development of more advanced centrifuges would also 
significantly complicate the verification of a long-term agreement. In 
a breakout or cheating scenario, Iran would need far fewer of these 
advanced centrifuges in a clandestine plant to make weapon-grade 
uranium than in one using IR-1 centrifuges. For example, Iran recently 
claimed it has done initial work on a centrifuge, called the IR-8, 
reportedly able to produce enriched uranium at a level 16 times greater 
than the IR-1 centrifuge. Such a centrifuge, if fully developed, would 
allow Iran to build a centrifuge plant with one-sixteenth as many 
centrifuges. Currently, Iran has about 18,000 IR-1 centrifuges, and in 
a breakout it could produce enough weapon-grade uranium for a nuclear 
weapon in about 2 months, according to both U.S. and ISIS estimates. 
So, instead of needing 18,000 IR-1 centrifuges to achieve this rapid 
production of weapon-grade uranium, it would need only 1,125 advanced 
ones to produce as much weapon-grade uranium in the same time. Thus, 
equipped with more advanced centrifuges Iran would need far fewer 
centrifuges than if it had to use IR-1 centrifuges, permitting a 
smaller, easier to hide centrifuge manufacturing complex and far fewer 
procurements of vital equipment overseas. If Iran made the decision to 
break out to nuclear weapons, the advanced centrifuges would greatly 
simplify its ability to build a covert centrifuge plant that would be 
much harder to detect in a timely manner allowing an international 
response able to stop Iran from succeeding in building nuclear weapons.
    Advanced centrifuges bring with them significant verification 
challenges that complicate the development of an adequate verification 
system. Even with an intrusive system that goes beyond the Additional 
Protocol, IAEA inspectors would be challenged to find such small 
centrifuge manufacturing sites, detect the relatively few secret 
procurements from abroad, or find a small, clandestine centrifuge plant 
outfitted with these advanced centrifuges. Moreover, with such a small 
plant needing to be built, Iran would also have a far easier time 
hiding it from Western intelligence agencies.
(5) Keep Centrifuge Numbers Low and as a Supplementary Measure Achieve 
        Lower Stocks of LEU Hexafluoride and Oxide
    Although an important goal is reducing LEU stocks, their reduction 
without lowering centrifuge numbers significantly is not a workable 
proposition. In essence, the priority is lowering centrifuge numbers 
and strengthening that goal by also reducing the stocks of LEU, whether 
or not in hexafluoride or oxide forms. Limiting the amount of 3.5 
percent LEU to no more than the equivalent of about 500 kilograms 
(hexafluoride mass) appears manageable, as long as the number of IR-1 
centrifuges does not exceed roughly 4,000 to 5,000. This proposition 
would require that tonnes of excess LEU in both oxide and hexafluoride 
form would be shipped out of Iran. Because the authorized centrifuges 
would continue producing 3.5 percent LEU, this LEU cap would require 
Iran to regularly ship LEU out of the country after a deal is signed. 
However, at any point, Iran could halt LEU shipments and build up its 
stocks of LEU. Because this type of arrangement is quickly reversible, 
caps on LEU stocks, while worthwhile, cannot replace the priority of 
limiting centrifuge numbers.
    As some have proposed, treating these two, reinforcing steps 
instead as a zero-sum game is counterproductive to achieving an 
adequate agreement. In this scheme, the number of centrifuges would be 
raised substantially, to 7,000, 8,000 or more IR-1 centrifuges or 
equivalent number of advanced ones, while lowering the stocks of 3.5 
percent LEU toward zero. In one version of this scheme, only the amount 
of 3.5 percent LEU hexafluoride would be reduced toward zero via 
conversion into LEU oxide. Once in oxide form, it would somehow be 
considered no longer usable in a breakout. But this is wrong. Both 
chemical forms of LEU have to be considered since Iran can in a matter 
of months reconvert LEU oxide into hexafluoride form and then feed that 
material into centrifuges, significantly reducing total breakout time, 
particularly in cases where breakout times of 6-12 months are required. 
In fact, in these cases, when Iran would have to reconvert LEU oxide 
back to hexafluoride form, breakout timelines only grow by a matter of 
a few to several weeks.
    Moreover, Iran does not have a way to use large quantities of 3.5 
percent LEU in a reactor, so irradiation cannot be counted on to render 
these oxide stocks unusable. This means that proposals that merely 
lower the quantity of LEU hexafluoride by converting it into oxide form 
or fresh fuel is an even more unstable, reversible idea than variants 
that lower total LEU stocks to zero.
    Some background is helpful. This proposal is fundamentally based on 
Iran not possessing enough 3.5 percent LEU to further enrich and obtain 
enough weapon-grade uranium (WGU) for a nuclear weapon, taken here as 
25 kilograms. If Iran had less than 1,000 kilograms of 3.5 percent LEU 
hexafluoride, it would not have enough to produce 25 kilograms of WGU. 
Its breakout time would increase because it would be required to also 
feed natural uranium into the centrifuges. It could not use the three-
step process, where WGU is produced in three steps, with the greatest 
number of centrifuges taking 3.5 percent to 20 percent LEU, a smaller 
number enriching from 20 to 60 percent, and a smaller number still 
going from 60 to 90 percent, or WGU. Instead, Iran would need to add a 
fourth step at the ``bottom'' enriching from natural uranium to 3.5 
percent LEU. This step would require a large number of centrifuges and 
thus fewer would be available for the other steps, lengthening breakout 
times.
    Figure 1 shows mean breakout times for a four-step process, where 
the amount of LEU varies from 0-1000 kilograms of 3.5 percent enriched 
uranium hexafluoride and each graph represents a fixed number of IR-1 
centrifuges, from 4,000 to 18,000. In this case, it is assumed that 
Iran would have no access to near 20 percent LEU hexafluoride, a 
dubious assumption (see below). In the figure, a 6-month breakout time 
is represented by the black horizontal line on the graph. Several cases 
are noteworthy. For less than 6,000 IR-1 centrifuges, all of the 
breakout times exceed 6 months. For 10,000 IR-1 centrifuges, the 
breakout time is 6 months for stocks of 1,000 kilograms of 3.5 percent 
LEU hexafluoride and exceeds 6 months for lesser amounts of LEU. For 
14,000 centrifuges, when the stock is below about 500 kilograms of 3.5 
percent enriched uranium hexafluoride, the breakout time is 6 months or 
more. For 18,000 centrifuges, a 6-month breakout time only occurs for 
an inventory of zero kilograms of 3.5 percent enriched uranium, a 
physical impossibility. That number of centrifuges would produce 
several hundred kilograms of 3.5 percent LEU hexafluoride every month. 
Much of this material would be in the product tanks hooked to the 
cascades and thus readily usable. So, cases of no LEU are not 
achievable.
    If instead a 1-year breakout time was selected, the numbers of 
centrifuges and LEU stocks would be significantly less. For example, in 
the unrealistic case of no available near 20 percent LEU, a breakout 
time of 1 year would correspond to 6,000 IR-1 centrifuges and a stock 
of 500 kilograms of 3.5 percent LEU hexafluoride.
    In fact, a major weakness in proposals to reduce LEU stocks while 
keeping centrifuge numbers relatively high is that the very product 
produced by the centrifuges, namely 3.5 percent LEU, would need to be 
regularly eliminated through some process. Obtaining this level of 
compliance would be challenging. Even if the LEU were to be shipped 
overseas, Iran could hold back sending it abroad, building up a large 
stock. Similarly, if it were converted into an oxide form, Iran could 
delay doing so, feigning problems in the conversion plant or delays in 
transporting it to the plant for conversion. Moreover, conversion to 
oxide as mentioned above can be rapidly reversed, allowing a three-step 
process and significantly faster breakout.
    In the unlikely case of Iran not mustering any near 20 percent LEU 
hexafluoride, a plant with 10,000 IR-1 centrifuges would correspond to 
a 6-month breakout limit if the stock did not exceed 1,000 kilograms of 
3.5 percent LEU hexafluoride. In 2 months, however, another 500 
kilograms could be produced in this number of centrifuges, with the 
total 3.5 percent LEU stock reaching 1,500 kilograms and allowing a 
three-step breakout, which could occur in a matter of a few months. 
Thus, in practice, LEU stocks would need to be maintained at levels far 
below 1,000 kilograms, even in the case of 10,000 IR-1 centrifuges. And 
keeping the stocks below this limit would be very challenging over the 
duration of a deal. If Iran kept more than 10,000 IR-1 centrifuges, the 
situation is more untenable.
    The above discussion assumes that Iran could not use near 20 
percent LEU hexafluoride. Why is this, in fact, unlikely to be the 
case? Iran has stockpiled relatively large quantities of near 20 
percent LEU oxide, quantities way beyond what is necessary to fuel the 
Tehran Research Reactor. By using this stock, Iran could reduce 
breakout times considerably after reconverting the near 20 percent LEU 
oxide into hexafluoride form. Iran currently has enough near 20 percent 
LEU, if reconverted into hexafluoride form and further enriched, to 
yield enough weapon-grade uranium for a nuclear weapon. The 
comprehensive agreement should certainly further reduce the size of the 
near 20 percent LEU stock; however, Iran is not expected to eliminate 
this stock, as long as Iran will fuel the Tehran Research Reactor 
(TRR). In the future, Iran could start to reconvert this material to 
hexafluoride form in a matter of months and dramatically speed up 
breakout.
    Figure 2 shows the impact of only 50 kilograms of near 20 percent 
LEU hexafluoride on mean breakout times, where again a four-step 
process is used. With just 50 kilograms of near 20 percent LEU 
hexafluoride, a stock of 500 kilograms of 3.5 percent LEU hexafluoride, 
and 10,000 IR-1 centrifuges, breakout time would be 6 months. For 
comparison, in the case of no near 20 percent LEU discussed above, 
10,000 IR-1 centrifuges could achieve a 6-month breakout only with a 
stock of 1,000 kilograms of 3.5 percent LEU hexafluoride. So, 50 
kilograms of near 20 percent LEU hexafluoride is equivalent to roughly 
500 kilograms of 3.5 percent LEU hexafluoride. If a stock of 50 
kilograms of near 20 percent LEU hexafluoride is used in conjunction 
with a stock of 1,000 kilograms of 3.5 percent LEU hexafluoride, Iran 
would have enough LEU hexafluoride to use a three-step process to break 
out and achieve breakout times of a few months.
    So, in a realistic case whereby Iran would need to accumulate only 
50 kilograms of near 20 percent LEU hexafluoride, a 6-month breakout 
would correspond to 10,000 IR-1 centrifuges and a stock of 3.5 percent 
LEU that could not exceed 500 kilograms. While in theory this limit 
could be maintained, in practice that is highly unlikely. Each month, 
such a plant would produce almost 250 kilograms of 3.5 percent LEU 
hexafluoride. In 2 months, Iran could exceed the cap by 500 kilograms, 
reaching a total of 1,000 kilograms of 3.5 percent LEU hexafluoride, or 
enough if used in combination with the near 20 percent LEU hexafluoride 
stock to reduce breakout times to about 4 months, all the while 
claiming that some reasonable problems prevent it from removing the 
excess material.
    If instead a 1-year breakout time was selected, the numbers of 
centrifuges and LEU stocks would again be significantly less. For 
example, a breakout time of 1 year would correspond to 6,000 IR-1 
centrifuges and a stock of about 200 kilograms of 3.5 percent LEU 
hexafluoride. In the case of 4,000 IR-1 centrifuges, the breakout time 
would be about 12 months with about 700 kilograms of 3.5 percent LEU 
hexafluoride. If the LEU limit was set at about 500 kilograms of 3.5 
percent hexafluoride, and given that a limit could easily be exceeded 
by a few hundred kilograms, the numbers of IR-1 centrifuges should not 
exceed 4,000-5000.
    In sum, lowering stocks in support of the fundamental goal of 
sharply limiting centrifuge numbers is a useful measure that would 
strengthen a deal. If stockpile limits are exceeded, that violation 
would pose minimal risk to the agreement as long as the centrifuge 
numbers are small.
(6) Beware the Concept of ``SWU'' as a Limit
    Enrichment effort is measured in separative work units (SWU). 
However, setting limits on the annual SWU of a centrifuge plant has 
several problems. One is that determining the annual SWU of a 
centrifuge plant is difficult, and its average value can change. Iran 
for example suggested in the negotiations that it would be willing to 
reduce the speed of its centrifuges and the amount of natural uranium 
fed into the centrifuge cascades, while it kept the same number of 
centrifuges. Both of these measures would reduce the annual SWU of the 
centrifuge plants, potentially significantly, even reduce it by a third 
of its existing enrichment output. But in a day, Iran could reduce 
these steps and reclaim its original enrichment capability; it is easy 
to increase the speed and the feed rate. Not surprisingly, Western 
negotiators soundly rejected this proposal.
    While SWU has a role to play in determining the equivalence of 
different types of centrifuges, it should not be a limit in its own 
right.
(7) Ensure the Arak Reactor's Changes are Irreversible
    Iran appears to accept that it must limit plutonium production in 
the heavy water Arak nuclear reactor (IR-40), which is almost 90 
percent complete and under a construction moratorium because of the 
interim nuclear deal. As presently designed, the reactor can be used 
relatively easily to make weapon-grade plutonium, at a production rate 
of up to about nine kilograms a year. This plutonium could later be 
separated and used in nuclear weapons.
    Strategies for lowering plutonium production have been discussed 
publicly, where the reactor would use 5-percent enriched uranium fuel 
instead of natural uranium fuel and its power would be reduced by more 
than half, from 40 megawatts-thermal (MWth) to 10-20 MWth. This 
strategy would involve placing LEU fuel in a small fraction of the fuel 
channels in a large vessel--often called a ``calandria''--through which 
the heavy water moderator and coolant flows. The Arak calandria has 
about 175 fuel and control rod channels. The LEU would be inserted into 
the middle section of the calandria with the majority of channels left 
empty. There are two problems remaining in this strategy, namely 
whether the calandria would be replaced with one sized for LEU fuel, 
and the heat exchangers would be downsized appropriately to those 
needed for a 10-20 MWth reactor.
    Although the outcomes of reduced power and enriched uranium fuel 
are preferred, leaving Iran with an unmodified Arak calandria and its 
original heat exchangers constitutes an unacceptable proposal. If the 
core and heat exchangers were left intact, Iran could in a 
straightforward manner switch back to a natural uranium core and 40 
MWth of power, undoing this limitation on plutonium production. This 
reconversion could occur in the open and under IAEA safeguards where 
Iran creates some pretext. In terms of the natural uranium fuel, Iran 
has already made significant progress on preparing a core load of 
natural uranium fuel, which could be finished, or the experience used 
to fabricate another one. Once switched back, Iran could run the 
reactor under safeguards to produce plutonium, even weapon-grade 
plutonium. Since the reactor would be fully operational, its 
destruction via military means would be dangerous and highly risky, and 
on balance unlikely to occur. Then, at the time of its choosing, Iran 
could breakout, having only to separate the plutonium from the spent 
fuel, which could be done utilizing a covert, low technology 
reprocessing plant in a matter of a few months. The designs for this 
type of plant are unclassified and readily available, and such a plant 
would be very difficult for the IAEA (or intelligence agencies) to 
detect either during its relatively short construction or subsequent 
operation.
    At a minimum, Iran should remove the existing calandria and replace 
it with one sized appropriately for a core of the agreed upon number of 
LEU fuel assemblies. The existing one should be rendered unusable or 
removed from Iran.
    Despite the merits of modifying the Arak reactor, a more effective 
compromise remains upgrading the Arak reactor to a modern light water 
research reactor (LWR) which can be designed to be far more capable of 
making medical isotopes than the current Arak reactor design. It can 
also be designed to make plutonium production in targets much more 
difficult to accomplish than the Arak reactor or older style research 
reactors.
    A proposal to do so involves ensuring that the LWR is built 
irreversibly with a power of 10 MWth. This would require 
remanufacturing of the Arak reactor and changes to the heat exchangers 
and cooling system. Under this proposal, there is no need to produce 
heavy water, and the current stocks could be sold on the world market. 
Production of natural uranium oxide powder, fuel pellets, rods, and 
assemblies for the Arak IR-40 would be halted. Moreover, the associated 
process lines would also need to be shut down, including the production 
of specifically IR-40 relevant materials such as zirconium tubes. In 
return, the P5+1 could assist Iran in producing fuel for the LWR. Iran 
could produce the necessary LEU in its enrichment program.

[Editor's note.--The graphs and annex attachments submitted with Mr. 
Albright's prepared statement can be found in the ``Additional Material 
Submitted for the Record'' section at the end of this hearing.]

    The Chairman. Thank you.
    Dr. Doran.

     STATEMENT OF DR. MICHAEL DORAN, SENIOR FELLOW, HUDSON 
                   INSTITUTE, WASHINGTON, DC

    Dr. Doran. Chairman Menendez, Ranking Member Corker, 
members of the committee, thank you for inviting me today to 
speak on the next steps to achieve a comprehensive deal in the 
negotiations with Iran.
    Please permit me to focus my remarks on the perceptions of 
America's Middle Eastern allies: Israel, Saudi Arabia, the gulf 
sheikhdoms, Turkey, Egypt, and Jordan.
    When one speaks to elites across the Middle East, one 
encounters a prevailing climate of skepticism regarding the 
negotiations. The tale that our allies tell about the thaw in 
relations between the United States and Iran is markedly 
different from the tale that the Obama administration itself is 
telling.
    The administration begins its story by pointing to a change 
of heart in Tehran to the supposed decision by the government 
of Hassan Rouhani to guide Iran toward reconciliation with the 
international community.
    Our allies, by contrast, start their story by pointing to a 
strategic shift in Washington. They perceive the Obama 
administration to have abandoned the traditional American role 
of containing Iran. They now see the United States instead in a 
kind of silent partnership with the Islamic Republic.
    In my prepared statement, I investigate the history of that 
perception. In the interest of time here, suffice it to say 
that the idea of a silent partnership was taking shape in the 
minds of our allies even before the administration signed the 
Joint Plan of Action, the JPOA, on the Iranian nuclear 
question. And the JPOA, in turn, confirmed the sense of that 
silent partnership.
    While many in Washington interpreted the JPOA as a sign 
that the Rouhani government was making a good faith effort to 
bring Iran into compliance with the Nonproliferation Treaty, 
America's Middle Eastern allies were more inclined to interpret 
it as a sign that the Obama administration was retreating from 
long-held positions without receiving reciprocal concessions 
from the Iranians.
    Over the last year, five major trends in American policy 
have deepened the perception of American retreat from 
leadership and a silent partnership between Washington and 
Tehran.
    First, our allies perceive increased coordination at the 
diplomatic level and in military operations between the United 
States and Iran and Syria. Just 2 days ago, the regional press 
noted that the Iranian Air Force was carrying out sorties in 
Iraq against the Islamic State. The Iranians, the press noted, 
could not have conducted operations in such close proximity to 
the Americans without significant levels of coordination 
between the two.
    Second, this increased cooperation has not produced any 
change in the malign Iranian policies that historically have 
deeply threatened America's allies. To name just a few of those 
policies, Tehran continues to support Palestinian terrorist 
organizations, to build up Shiite militias in Iraq, to empower 
the worst element of Bashar al-Assad's murder machine, and to 
supply Hezbollah with missiles capable of striking all major 
population centers in Israel.
    Third, our allies have noted the continued American refusal 
to build up the Syrian opposition in ways that might threaten 
the Assad regime. They read that refusal as proof that the 
President regards Syria as an Iranian sphere of interest.
    Fourth, the rhetoric of the administration is frequently 
hostile to traditional friends. When Vice President Biden, at a 
recent talk at Harvard, stated that our allies are the 
problem,'' and when a senior official in the White House 
denigrated the Israeli Prime Minister in the crudest of terms, 
they were merely airing publicly viewpoints that administration 
officials have shared privately for at least a year.
    Fifth, and not least, the conduct of the United States in 
the nuclear negotiations has confirmed our allies' perception 
that American resolve is flagging. When the Supreme Leader, Ali 
Khamenei, made clear his refusal to dismantle a single 
centrifuge, the administration retreated from established 
positions. As a result, our allies are now asking if it is not 
the Americans and not the Iranians who are in need of a face-
saving agreement.
    The alarm of our allies is worrying for a whole host of 
reasons, but two are particularly worth noting.
    First, their alienation from the President's regional 
strategy is undermining his ability to build an effective 
coalition against the Islamic State. It is a hard fact of life 
that we cannot win the conflict without developing Sunni 
allies. On the ground, we need Sunni troops. We need trusted 
Sunni troops, troops that are trusted by the local population 
who are capable of holding the cities and towns from which we 
will drive ISIS. In the region more broadly, we need a 
committed coalition of Sunni states. However, as long as we are 
aligned with Iran and with its allies who have a well-deserved 
reputation for sectarian murder, we will fail to attract Sunnis 
to our banner.
    The second reason for caring about our allies' morale 
relates directly to the nuclear negotiations. The 
demoralization of our friends emboldens Ali Khamenei. The five 
trends in American policy that deeply unsettle our allies have 
the effect of reassuring the Iranian leader. They indicate, 
among other things, that his intransigence is unlikely to 
provoke President Obama into ratcheting up economic sanctions, 
let alone contemplating military action.
    With the threat of economic pressure diminished and the 
military option all but nonexistent, American regional strategy 
incentivizes Iran to hold out for more concessions. If the 
administration does not take steps immediately to reconstitute 
the leverage that it held over Iran just a year ago, then we 
can be assured that the next round of negotiations will result 
in the further erosion of the American position.
    The first step toward regaining that leverage is for the 
President to sign a new sanctions bill that will demonstrate to 
the Iranians and to our allies in the region that our patience 
is not endless.
    The second step is to dispel our allies' perception of the 
silent partnership. Such action begins but is by no means 
limited to building up an effective opposition to the Assad 
regime in Syria.
    I thank you again for asking me to testify. It is a great 
honor to speak before this body on such an important issue.
    [The prepared statement of Dr. Doran follows:]

                Prepared Statement by Dr. Michael Doran

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for inviting me today to speak on the next steps to achieve a 
comprehensive deal in the nuclear negotiations with Iran. Please permit 
me to focus my remarks on the perceptions of America's Middle Eastern 
allies--Israel, Saudi Arabia, the Gulf sheikhdoms, Turkey, Egypt, and 
Jordan.
    It goes without saying that no two countries are exactly the same, 
and that within each country there are significant differences of 
opinion. Nevertheless, when one speaks to elites across the Middle East 
one encounters a prevailing climate of skepticism regarding the nuclear 
negotiations. It is my intention today to discuss the sources of that 
skepticism and to analyze its impact on America's strategic goals.
    The tale that our allies tell about the thaw in relations between 
the United States and Iran is markedly different from the tale that the 
Obama administration itself is telling. The administration begins its 
story by pointing to a change of heart in Tehran--to the supposed 
decision by the government of Hassan Rouhani to guide Iran toward 
reconciliation with the international community.
    Our allies, by contrast, see no convincing proof that Tehran is 
changing course. What they see, instead, is a strategic shift in 
Washington. Their account of the American-Iranian thaw begins with 
President Obama's decision, taken while he was still Senator Obama, to 
end wars. That goal raised an obvious question: In the absence of 
American troops, what new arrangements on the ground would safeguard 
American interests? At some point, our allies believe, the President 
decided in favor of a concert system, a club of powers that would band 
together to stabilize the region. But in sharp contrast with his 
predecessors, President Obama conceived of that club as including Iran.
    While one can argue about whether the President truly entertains 
such a vision, there is no disputing the fact that many of our closest 
allies are utterly convinced of this fact. They perceive the United 
States to be in a silent partnership with Iran already, and to be 
working daily for closer relations with it.
    This is no fleeting impression. It is a solid body of opinion, 
based on close observation and analysis, which began to take clear 
shape over 2 years ago, in 2012, against the backdrop of the conflict 
in Syria. When Iran and its proxy, Hezbollah, intervened directly to 
prop up the regime of Bashar al-Assad, a number of America's closest 
friends came to Washington and beseeched the President to organize a 
counter response. The request forced President Obama to choose between 
two rival visions of the American role in the Middle East. Was the 
United States dedicated to containing Iran, or to arriving at a modus 
vivendi with it? He chose the latter path.
    At that time, it was not clear whether President Obama was 
consciously choosing in favor of Iran, or simply seeking to avoid a 
costly and uncertain military adventure. But his decision, regardless 
of his motivations, had the effect of giving Iran a free hand in Syria. 
From the perspective of our allies, this was a matter of great 
consequence, because Syria, to them, was more than just a particularly 
brutal civil war. It was the key battleground in a struggle for a new 
regional order. If only inadvertently, the President had voted in favor 
of an Iranian regional ascendancy.
    Over the course of the following year, however, our allies came to 
the conclusion that President Obama's bias in favor of Iran was by no 
means accidental. The key event that generated this perception was the 
President's decision, in September 2013, to seek congressional 
authorization for strikes against the Assad regime. This deference to 
Capitol Hill was read, in the Middle East, as a transparent decision 
not to strike. At the time, stories began to circulate in the Middle 
East regarding a secret bilateral negotiating channel between Tehran 
and Washington. Subsequently, those stories turned out to be true. From 
the point of view of our allies, it makes little difference whether the 
channel was used to discuss Syria in any meaningful way. Its mere 
existence sent a signal of broad strategic intent.
    As our allies were still absorbing the meaning of that signal, the 
administration brokered the Joint Plan of Action (JPOA) on the Iranian 
nuclear question. While many in Washington interpreted the JPOA as a 
sign that the Rouhani government was making a good faith effort to 
bring Iran into compliance with the Non-Proliferation Treaty, America's 
Middle Eastern allies were more inclined to see it as a capitulation by 
the United States. In their view, the Obama administration was 
retreating from long-held positions without receiving reciprocal 
concessions from the Iranians. In short, the JPOA became another sign 
of American retreat.
    Since the signing of the JPOA, five major trends in American policy 
have deepened the perception of a silent partnership with Iran--a 
perception that is now set in stone.
    First, our allies perceive increased coordination, at the 
diplomatic level and in military operations, between the United States 
and Iran and Syria. When Secretary of State Kerry testified before this 
committee he explicitly denied such coordination. He preferred instead 
to speak in terms of ``de-confliction.'' This euphemism, however, is 
hardly influencing perceptions in the Middle East. Just 2 days ago, the 
regional press noted that the Iranian Air Force was carrying out 
sorties in Iraq against ISIS. The Iranians, the press noted, could not 
have conducted operations in such close proximity to the Americans 
without significant levels of coordination between the two.
    Second, this increased cooperation has not produced any change in 
the malign Iranian policies that, historically, have deeply threatened 
America's allies. To name just a few of those policies, Tehran 
continues to support Palestinian terrorist organizations, to build up 
Shiite militias in Iraq, to empower the worst elements of Bashar al-
Assad's murder machine, and to supply Hezbollah with missiles capable 
of striking all major population centers in Israel. In years past, 
policies of this sort provoked a counter reaction from the United 
States. Now, however, they barely elicit a peep from Washington.
    Third, our allies have noted the continued American refusal to 
build up the Syrian opposition in ways that might threaten the Assad 
regime. They read that refusal as proof that the President regards 
Syria as an Iranian sphere of interest.
    Fourth, the rhetoric of the administration is frequently hostile to 
traditional friends. When Vice President Biden, at a recent talk at 
Harvard, stated that ``our allies are the problem,'' and when a senior 
official in the White House denigrated the Israeli Prime Minister in 
crude terms, they were merely airing publicly viewpoints that 
administration officials have been sharing privately for at least a 
year.
    Fifth, and not least, the conduct of the United States in the 
nuclear negotiations has confirmed our allies' perception that American 
resolve is flagging. When the Obama administration first agreed to the 
JPOA's terms, it explained the renunciation of the demand for zero 
enrichment as a way of allowing Supreme Leader Ali Khamenei to save 
face. All he needed, so the argument went, was a symbolic level of 
enrichment. It soon became clear, however, that those who had developed 
this assessment had failed to consult the man himself. When Khamenei 
made clear his refusal to dismantle even a single centrifuge, the 
administration again retreated. As a result, our allies are now asking 
if it is the Americans, and not the Iranians, who are in need of a 
face-saving agreement.
    Do the bitter assessments of our allies really matter? Indeed they 
do. Their alarm is worrying for a whole host of reasons, but two are 
particularly noteworthy. First, our allies' alienation from the 
President's regional strategy is undermining his ability to build an 
effective coalition against ISIS. It is a hard fact of life that we 
cannot win this conflict without developing Sunni allies. On the ground 
we need Sunni troops, trusted by the local population, who are capable 
of holding the cities and towns from which we will drive ISIS. In the 
region more broadly, we need a committed coalition of Sunni states. 
However, so long as we are aligned with Iran and its allies, who have a 
well-deserved reputation for sectarian murder, we will fail to attract 
Sunnis to our banner.
    The Turkish case is instructive. In sharp contrast to Saudi Arabia 
and Israel, Turkey does not regard Iran as an existential threat. 
Nevertheless, the Turkish Government is deeply committed to toppling 
the Assad regime, which it correctly identifies as the single most 
destabilizing force in Syria. Thus, even with respect to Turkey, the 
Obama administration's de-facto recognition of an Iranian sphere of 
interest is undermining its goal of building an effective anti-ISIS 
coalition.
    The second reason for caring about our allies' concerns relates 
directly to the nuclear question. It is a grave mistake to assume that 
the Iranian position in the nuclear negotiations is disconnected from 
everything else that is happening in the Middle East. The 
demoralization of our allies emboldens Ali Khamenei. It is just as 
clear to him as it is to the Saudis and the Israelis that the Obama 
administration has prioritized the conflict with ISIS over the 
containment of Iran. The five trends in American policy that deeply 
unsettle our allies have the effect of providing the Iranian leader 
with reassurance. They indicate, among other things, that his 
intransigence is unlikely to provoke President Obama into ratcheting up 
economic sanctions, let alone to contemplate military action.
    With the threat of economic pressure diminished and the military 
option all but nonexistent, American regional strategy incentivizes 
Iran to hold out for more concessions. In doing so, that strategy has 
made it nearly impossible to imagine a satisfactory comprehensive 
agreement--one that includes restrictions on ballistic missiles and 
warheads, a full disclosure by Iran of the possible military dimensions 
of its program, and an effective monitoring regime. If the 
administration does not take steps immediately to reconstitute the 
leverage that it held over Iran just a year ago, then we can be assured 
that the next round of negotiations will result in the further erosion 
of the American position.
    The first step toward regaining that leverage is for the President 
to sign a new sanctions bill that will demonstrate to the Iranians, and 
to our allies in the region, that our patience is not endless. The 
second step is to dispel our allies' perception of a silent partnership 
with Iran. That step begins with, but is by no means limited to, 
building up an effective opposition to the Assad regime in Syria.
    Thank you again for inviting me to testify. It is an honor to speak 
before this committee on an issue of such importance.

    The Chairman. Thank you very much.
    Dr. Samore.

 STATEMENT OF DR. GARY SAMORE, EXECUTIVE DIRECTOR FOR RESEARCH 
  AT THE BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, 
      HARVARD KENNEDY SCHOOL OF GOVERNMENT, CAMBRIDGE, MA

    Dr. Samore. Thank you, Mr. Chairman and Ranking Member 
Corker for giving me this opportunity to testify.
    In my written statement, I go into some detail about the 
state of play in the negotiations, concessions that both sides 
have made. But the main point I want to make is that the 
failure to reach agreement on a comprehensive deal by the 
November 24 deadline is entirely Iran's fault. Many of the 
academics and pundits who comment about the nuclear 
negotiations gloss over this fact in the interests of being 
objective and evenhanded, but I think it is very important for 
us to emphasize that it is the Iranians, and not the Americans 
or the P5+1, that are obstructing a deal. In fact, the P5+1 led 
by the Americans I think have made very reasonable, creative, 
even generous offers that would allow Iran to preserve a 
limited enrichment capability as part of its nuclear energy 
program and allow it to defer coming to terms with the IAEA on 
its past and possibly current weaponization activities in 
exchange for graduated sanctions relief.
    But the Iranians have continued to take unrealistic and 
extreme positions dictated by the Supreme Leader's public 
edicts. They refused to sacrifice any of their existing 10,000 
operational centrifuges. They insist on a rapid buildup of 
their enrichment capacity to a much larger industrial scale 
within a relatively short period of time. And they are 
demanding full and immediate sanctions relief.
    Now, it may be that this is just sharp bargaining tactics, 
as the chairman and ranking member have suggested. Perhaps the 
Iranians are just holding out to see how many concessions they 
can squeeze out of the P5+1. And now that the P5+1 have 
categorically rejected Iran's demands in these last round of 
negotiations, we will have to wait and see whether the Supreme 
Leader authorizes some more flexibility as the negotiations 
resume.
    But I fear the more fundamental reason for the Iranian 
position is that Supreme Leader Khamenei just does not feel 
compelled to accept significant long-term limits on Iran's 
long-standing program to develop a nuclear weapons capability 
in part because his reading of geopolitical developments like 
the tensions between the West and Russia over Ukraine, the rise 
of ISIS in Iraq and Syria may give him the conclusion that Iran 
is in a much stronger bargaining position and is much more 
capable to withstand pressure from the United States and its 
allies to resume sanctions.
    And in addition, as the chairman pointed out, Iran's 
economy has at least stabilized under the Joint Plan of Action. 
Even though it is still not doing well, at least they have been 
able to stop the deterioration.
    Now, the chairman asked for some suggestions on what we 
might be able to do to change the situation because if we do 
not change it, I think we will be in exactly the same position 
we are today in March or in June. In a perfect world, the best 
diplomatic approach now would be for the United States to get 
agreement from the P5+1 to basically deliver an ultimatum to 
Iran, that either they take it or leave it, the current offer 
that is on the table. But I fear that the Russians and the 
Chinese will not agree to such a position. So I think we have 
to recognize that our diplomatic leverage is limited in part 
because of the very poor relations between Moscow and 
Washington, which could very easily get worse, by the way, if 
Russia takes another military move in Ukraine which seems quite 
possible.
    Nonetheless, I do think there are some things we can do.
    First, as both of you have suggested, I think it is very 
important that the P5+1 not make any new offers or new 
proposals until the Iranians come back with a position that 
shows that they are serious about coming to an agreement. And 
my understanding is that the talks broke up in Vienna with 
Zarif understanding that the ball is in Iran's court. So let us 
see what he comes back with when the negotiations resume, 
whether it shows any movement on these unrealistic positions 
that the Iranians have taken.
    Second, I think it is very important that the United States 
and its allies begin preparing for a resumption of sanctions as 
early as March if no political framework agreement is reached. 
And in particular, that means talking to our Asian allies, 
Japan, Korea, India, who still buy a significant amount of oil, 
and start working with them to prepare for them to reduce those 
purchases of oil, at the same time work with our Middle East 
allies like the Saudis and the Emiratis to continue high 
production so our allies in Asia have opportunities to replace 
Iranian oil with oil from other sources.
    And third, I hope the White House and Congress can work 
together to draft legislation that would identify additional 
sanctions and authorize the President to impose those sanctions 
in the event that Iran violates the Joint Plan of Action or if 
there is not an agreement or sufficient progress toward an 
agreement. I think the challenge here is crafting legislation, 
as Senator Corker said, that strengthens the United States 
bargaining leverage without giving the Iranians an excuse to 
renege on the Joint Plan of Action and blame it on the United 
States, which would jeopardize our ability to go back to a 
sanctions campaign.
    Now, I am not at all confident these actions will be 
successful. I think it is quite possible that Supreme Leader 
Khamenei is constitutionally unable to make the kind of 
concessions that we are seeking for an acceptable nuclear deal. 
And in that case, we are likely heading for a collapse of the 
Joint Plan of Action because I think it will be very difficult 
to continue to extend these talks without real tangible 
progress, if not a comprehensive agreement, then a partial 
agreement that addresses some of the key issues. And if we are 
heading for a collapse, I think our primary objective is to 
position ourselves to be in the strongest possible position to 
resume sanctions, and that means, in particular, making clear 
everybody understands that Iran is to blame for the failure to 
reach an agreement and therefore international pressure is 
justified.
    Thank you, sir.
    [The prepared statement of Dr. Samore follows:]

                 Prepared Statement of Dr. Gary Samore

    On November 24, Iran and the P5+1 (the U.S., Russia, France, U.K., 
Germany and China) agreed to extend the Joint Plan of Action (JPOA) 
until March 1, 2015, to seek agreement on a political framework and 
until June 30, 2015, to finalize a comprehensive nuclear agreement. 
Under the terms of the extension, Iran will be able to access $700 
million a month from its oil exports, for a total of about $5 billion 
dollars for the entire 7-month extension. In exchange, Iran has 
reportedly agreed to additional restraints on its research and 
development of more advanced centrifuge models, to allow the IAEA 
additional access to centrifuge production facilities, and to convert 
more of its stockpile of nearly 20 percent enriched uranium oxide into 
fuel for the Tehran Research Reactor.
    On balance, the extension makes sense. The negotiators seem to be 
making progress on several key issues, such as Iranian agreement to 
modify the Arak heavy water research reactor to produce less plutonium, 
convert the underground Fordow enrichment facility to some kind of 
research and development facility, remove some portion of its stockpile 
of low enriched uranium (LEU) to Russia for fuel fabrication, and allow 
additional monitoring and verification measures beyond the IAEA 
Additional Protocol. Extension is obviously preferable to the P5+1 
accepting a ``bad deal'' along the lines that Iran is demanding.
    At this point in the negotiations, extension is also preferable to 
allowing the JPOA to collapse. To the credit of the United States and 
its European allies, the JPOA is working effectively to freeze most 
aspects of Iran's nuclear program, while maintaining the key elements 
of the sanctions regime, in particular the limits on Iran's oil exports 
and access to revenue for oil sales. As a practical matter, Iran is 
unlikely to derive significant benefits from 7 additional months of 
negotiations under the JPOA, either in terms of sanctions relief or 
progress toward development of a nuclear weapons capability, as long as 
Iran continues to abide by the terms of the JPOA and as long as the 
United States and its allies continue to enforce the remaining 
sanctions regime.
    We should be clear that the need for an extension and the failure 
to reach agreement on a comprehensive nuclear deal is entirely Iran's 
fault. Led by the United States, the P5+1 have offered Iran extremely 
reasonable--even generous--proposals for a comprehensive agreement. For 
example, the P5+1 are reportedly prepared to allow Iran to retain up to 
4,500 operating IR-1 centrifuges (about half of the current number of 
operating IR-1 centrifuges) if Iran agrees to (1) disable the remaining 
centrifuges by removing cascade piping and equipment and (2) export 
most of its LEU stocks to Russia for fabrication into fuel elements for 
the Bushehr reactor. In essence, this proposal would achieve a break 
out time (i.e., the time required for Iran to produce a significant 
quantity of weapons grade uranium at its declared enrichment 
facilities) of about a year--compared to the current break out time of 
a few months--while allowing Iran to claim that it rejected any 
``dismantlement'' of its existing centrifuges. Reportedly, the P5+1 are 
also willing to accept a phased easing of restrictions on Iran's 
enrichment program over the proposed 15-year duration of the agreement, 
thus enabling Iran to say that its long-term option to develop an 
industrial scale enrichment program has been respected.
    On other issues, the P5+1 seem prepared to accept Iran's demand 
that the Arak 40 MW heavy water research reactor will not be converted 
to a light water research reactor, provided that the modifications to 
the reactor would reduce plutonium production capability to less than 
one kilogram a year and are not easily reversible. Finally, the P5+1 
seem willing to allow Iran to defer coming to terms with the IAEA on 
its past nuclear weapons program--the so-called Possible Military 
Dimension (PMD) issue--in exchange for graduated sanctions relief. 
While U.S. and European nuclear-related sanctions would be waived or 
repealed at the onset of a comprehensive agreement, removal of relevant 
United Nations Security Council sanctions would be linked to 
satisfaction of the IAEA's investigation.
    Iran, however, continues to take extreme and unrealistic positions. 
As dictated by Supreme Leader Khameini's public ``redlines,'' Iran 
apparently refuses to accept any reduction of its current force of 
nearly 10,000 operational IR-2 centrifuges, beyond offering 
modifications in performance that are easily reversible. Iran also 
insists on expanding its enrichment program to more advanced 
centrifuges and industrial-scale capacity by 2021, when its current 
contract with Russia to provide fuel for the Bushehr nuclear power 
plant expires. Finally, Iran is demanding immediate and total removal 
of all sanctions, both national and international. In essence, Iran 
wants early repeal of the relevant United Nations Security Council 
Resolutions so it can continue to stonewall the IAEA investigations of 
past and possible current nuclear weaponization research and 
development activities.
    Why has Iran rejected the P5+1 proposals? The most benign 
explanation is sharp bargaining tactics. Supreme Leader Khamenei may 
believe that the P5+1 will offer additional concessions if Iran sticks 
to its hard-line demands. Hopefully, now that the P5+1 has rejected 
Iran's terms, the Supreme Leader will be persuaded to allow his 
negotiators more flexibility before the March deadline for agreement on 
a political framework. A more sinister possibility, however, is that 
Supreme Leader Khamenei simply does not feel compelled to accept 
significant restrictions on Iran's long-standing program to develop a 
nuclear weapons option. For Supreme Leader Khameini, acquisition of a 
nuclear weapons capability is a critical national objective--both to 
protect the Islamic Republic against the ``Great Satan'' and other 
enemies and to assert Iran's dominance in the region. Whatever the 
views of President Rouhani and Foreign Minister Zarif, Khameini is not 
likely to accept limits on the nuclear program except under severe 
pressure and threat. Under the JPOA and President Rouhani's more 
competent economic team, however, Iran's economic deterioration has 
stabilized. Moreover, recent geopolitical developments, such as the 
tensions between Russia and Western countries over Ukraine and the rise 
of Islamic State in Syria and Iraq, may give Supreme Leader Khameini 
more confidence that Iran's bargaining leverage has improved and that 
Iran can weather the collapse of the JPOA.
    Whatever Iran's motivations, the negotiations will fail unless Iran 
is persuaded to show more realism and flexibility. As a first step, the 
P5+1 should not make any new offers until Iran reciprocates with a 
serious proposal of its own that accepts significant long-term 
constraints on its ability to produce fissile material and agrees that 
any comprehensive agreement must include graduated sanctions relief 
linked to the PMD issue. The P5+1 have already come up with creative 
solutions that would give the Iranian Government a face-saving deal it 
could sell at home if it wanted to. But, Tehran is unlikely to make the 
difficult decision to accept these proposals as long as it believes 
that the P5+1 have more concessions to offer or if it believes that the 
P5+1 are willing to live with additional extensions beyond July.
    Accordingly, the United States and its allies should begin 
preparing to resume the sanctions campaign in July if there is no 
comprehensive agreement or enough progress to justify another 
extension. This means persuading Iran's major remaining oil customers, 
such as Japan, Korea, and India, to plan for reducing their purchases 
of Iranian oil and obtaining commitments from other oil producers like 
Saudi and the Emirates that they will maintain high production to fill 
the gap. In fact, the international oil market--with reduced demand, 
low prices and increased supply--is favorable to increasing economic 
pressure against Iran, although we should recognize that renewed 
sanctions are unlikely to force Iran to meet our terms in the near 
term. Finally, the White House and Congress can work together to define 
and authorize additional sanctions that the President can impose if 
Iran violates the JPOA or fails to accept a political framework by 
March. Such legislation would need to be carefully crafted to 
strengthen U.S. bargaining leverage without giving Iran a pretext to 
blame the United States for destroying the JPOA.
    Whether these measures will be sufficient to produce an acceptable 
nuclear deal is unclear, but they probably stand the best chance of 
persuading Supreme Leader Khameini to make difficult decisions to 
accept limits on Iran's nuclear program. In the event that he is 
unwilling or unable to make those decisions, these measures will put us 
in the most favorable position to increase sanctions if no 
comprehensive agreement or another partial agreement is achieved. Most 
important, we need to keep pointing out that Iran--not the United 
States or the P5+1--is responsible for obstructing a reasonable nuclear 
deal and therefore additional international pressure on Iran is 
justified.

    The Chairman. Well, thank you all for your insights.
    Let me start with you, Dr. Samore, and where you ended.
    First of all, prior to your role here and at Harvard, you 
were the President's White House Coordinator for Arms Control 
and Weapons of Mass Destruction for 4 years I understand. Is 
that correct?
    Dr. Samore. It is.
    The Chairman. So you have been both inside the 
administration and outside of it, and I think that is important 
to note.
    Is the advice that you just gave or the insights you just 
gave here--if you were still working at the White House, is 
that the insights you would give to the President?
    Dr. Samore. Yes, sir, I certainly would. I mean, I 
supported the President's efforts to try to negotiate an 
agreement with Iran because I think, given the alternatives, 
that is probably the best option that is available to us. But I 
have always been skeptical that we could negotiate an agreement 
because I think Iran, or at least the Supreme Leader, is deeply 
committed to acquiring a nuclear weapons capability. 
Nonetheless, attempting to achieve a negotiation and being able 
to blame Iran for failure of a successful negotiation puts us 
in a much better position to mobilize pressure against Iran.
    The Chairman. And we are agreed on that. At least, I have 
always supported the--I have seen the sanctions that I have 
authored with the help of many members of this committee and 
beyond as a means to an end, an end, getting, one, a 
negotiation, but more importantly getting a solution. So I 
agree with that.
    But at some point, you have to decide whether or not you 
are heading to a fruitful conclusion. You, yourself, have 
repeatedly argued that both sides in this negotiation have an 
interest in keeping diplomacy going but that talks are unlikely 
to achieve a comprehensive deal, and to some degree you have 
reiterated that today.
    So when I hear that, well, let us keep negotiating, and I 
say, well, why would we keep negotiating if we do not honestly 
believe that the critical elements--some Mr. Albright listed in 
his testimony--are going to be agreed to and that continuing 
the march toward sanctions relief in the billions of dollars, 
which we wonder what the billions of dollars are being used 
for--is it for the Iranian people or is it being used to 
further a program here? The answer to that is, well, the 
Iranians have an interest to come to a conclusion, a successful 
conclusion.
    But I do not get the sense that they feel compelled to come 
to a conclusion as long as they can keep negotiating. Is that 
perspective wrong? If so, why? I would be interested in hearing 
is there a point that they will say, you know what, we are not 
getting to where we want to be. We are going to walk away.
    Dr. Samore. Well, first of all, I suspect you are right 
that we are not going to be able to reach a comprehensive 
agreement because the Iranians are being inflexible and 
intractable on the key issues. And if that is true, then 
eventually the Joint Plan of Action is going to collapse. And I 
think it would be better for us if it is the Iranians that 
renege or violate the agreement because that will put us in a 
much stronger position to go back to a sanctions track.
    And that is, in fact, the history of these nuclear 
negotiations. I mean, back in 2003, the Iranians reached a 
similar interim agreement with the Europeans that froze many of 
their nuclear activities, and 2 years later, the Iranians 
reneged on that deal. So I think that if we are anticipating 
that these negotiations are likely to be unsuccessful, I think 
we need to try to position ourselves so that Iran is 
responsible for breaking out of the negotiations instead of 
ourselves.
    The Chairman. But that raises the question at some point if 
you realistically cannot expect that diplomacy is going to run 
a successful course, that you have to call the question. Does 
it not? I mean, of course, kicking the ball down the road may 
have you escape how you pursue a solution to Iranian nuclear 
power for nuclear weapons, but it does not ultimately solve the 
core issue.
    Dr. Samore. Yes, that is correct, sir. I mean, the Iranians 
have been pursuing a nuclear weapon capability for 30 years.
    The Chairman. At some point we call the question and say we 
have tried, here is what we have done. You are going to have a 
blame game at some point if you cannot succeed. So the question 
is how do you best position it so that in fact--I get concerned 
that we have gone from a position of strength and maximalist 
positions to an increasingly minimalist position. And my 
concern is that we are heading in a direction that the Iranians 
are induced to continue at a negotiation because it is moving 
in their direction, and they are getting relief. And, yes, it 
is not everything, but remember, the relief is not only the 
money they are getting. Under the sanctions as they existed, we 
would have required even more oil to be offset. That has not 
taken place. So there are a lot of elements here that are not 
being calibrated as to the benefit that Iran is receiving.
    I would like to ask you all in this regard. In an editorial 
entitled ``More Nuclear Time in Tehran,'' the Washington Post'' 
quotes the President as saying in ABC This Week, the interim 
deal has, quote, ``definitely stopped Iran's nuclear program 
from advancing.'' And then it goes on to say in that editorial, 
we wonder what they think of that in Tehran. According to the 
latest International Atomic Energy Agency quarterly report, 
Iran has not halted centrifuge work at the Natanz facility as 
promised and has worked to perfect more advanced IR-5 
centrifuges to enrich uranium. That does not seem to me to be 
halting your process. Is there a view on that?
    Dr. Samore. Sure. I think ``halting'' is not an accurate 
description, but I do think the Joint Plan of Action has 
limited, frozen, rolled back some elements of Iran's program. 
Certainly if the Joint Plan of Action did not exist, they would 
be able to move closer toward a nuclear weapons capability, 
including additional research and development on more advanced 
machines. So I think we are getting some benefit from the Joint 
Plan of Action just as the Iranians are, and that is why an 
agreement was reached. Both sides gained something from it.
    The Chairman. Right. But is the purpose of more advanced IR 
centrifuges not the ability to shorten the time to ultimately 
have the enrichment capability to make a bomb?
    Mr. Albright. Yes, I think I would agree with Gary. That 
statement is not accurate. And there is worry about their 
advances on the advanced centrifuges. I mean, when they went to 
enrich in the IR-5, the best I can make out of it--I am not a 
lawyer, but based on talking to U.S. officials, that it was 
inconsistent with the U.S. understanding of what the agreement 
did. Lawyers can argue if that is a violation. But they asked 
Iran to stop, and Iran did stop. And the interim deal confirms 
and reiterates what is viewed as a U.S. commitment to not see 
enrichment in the IR-5 or see significant developments happen 
at the pilot plant. But they cannot stop developments 
happening. It is really they are trying to stop major 
developments taking place at the pilot enrichment plant as this 
deal is extended one time after another. So I think they are 
making progress. It is slower.
    But the other part of this--and this is probably why I 
think one has to wonder if this thing can just continue to be 
extended--is Iran is not under some kind of microscope. There 
is a lot of Iran's nuclear program that is not subject to any 
IAEA inspection even involving advanced centrifuges. And so you 
have to worry that there is something going on on the covert 
side where Iran is making advancements. And they tend to throw 
that in our face in a way with announcements. You know, they 
had major breakthroughs on the IR-8 centrifuge, for example, 16 
times more powerful than the IR-1. All that work is done 
outside of any IAEA purview. It is not being done at the pilot 
plant. So you do have to worry over time that advancements are 
happening that are not in the U.S. interest.
    The Chairman. That is a perspective that Olli Heinonen, a 
former IAEA deputy director, has stated when he said that Iran 
may be within months developing a nuclear weapon because the 
IAEA has not been able to fully inspect Iran's uranium and 
centrifuge stocks. He said the international community does not 
have a, quote, complete picture of what Iran actually has in 
stock. He went on to say Iran could have up to 4,000 or 5,000 
centrifuges of raw materials like carbon fiber for their 
production outside of Natanz and Fordow. Is that not the type 
of concern that we would have in this regard?
    Mr. Albright. Yes. I cannot remember what Olli was saying 
there. But I think one aspect is Iran said it was going to 
install 3,000 IR-2m's at the fuel enrichment plant at Natanz. 
It did install 1,000 and then the JPOA froze further work 
there. They may have built all the components for those other 
2,000. And right now--and the IAEA freely says this--it does 
not have the tools in hand or the cooperation from Iran to 
provide assurance they are undeclared nuclear activities or 
facilities. So you do have to worry about that.
    The Chairman. When we keep hearing that we have 
unprecedented inspections, that may be true, but those 
inspections are not as pervasive as necessary to guarantee us 
that they do not have the wherewithal outside of what is being 
reviewed by the IAEA to be able to pursue.
    Mr. Albright. I think I would disagree that they are that 
pervasive.
    The Chairman. You would disagree.
    Mr. Albright. Yes.
    The Chairman. We are being told we have the most pervasive 
inspections regime going on.
    Mr. Albright. Well, I think the counter to that is that the 
United States is arguing to not only get the additional 
protocol but supplementary verification measures that go way 
beyond what is in place now. And so what I think you can say is 
that verification at the known declared sites is better than it 
was prior to the JPA. And there have been breakthroughs 
reported in the press, you know, at centrifuge manufacturing 
sites involved in making the rotors, inspections have gone 
from--or visits really. They are not really inspections, I 
would argue--have gone from once a month to twice a month, and 
the IAEA can do more choice of when it goes, in a sense pick a 
date when it goes, and have some element of surprise about the 
date it is going to pick. But that is a far cry from knowing 
really if there are centrifuges being manufactured there in 
secret when they are not there. They do not have cameras. They 
do not have short-notice inspection rights to go there that 
they would have under the additional protocol.
    So I think the inspections are not nearly what they need to 
be, but they are adequate to verify the freeze imposed in the 
Joint Plan of Action but they are not sufficient to provide 
assurance that secret activities are not ongoing.
    The Chairman. Senator Corker.
    Senator Corker. Thank you. I was going to go in a different 
direction, but I want to follow up for just one second.
    So there, obviously, I think is concern by everybody on 
this panel about what they are doing covertly, what they are 
doing at their military installations. Dr. Samore mentioned 
about the fact that there are possible violations, but you, Mr. 
Albright, mentioned that the IAEA recently reported that Iran 
has not only missed deadlines for resolving some of the key 
inspections issues--these are at the declared sites obviously--
but had fed uranium into an IR-5 centrifuge. And I would just 
ask this question. Is that not itself a violation of the 
existing agreement?
    Mr. Albright. We asked that question ourselves, and we 
rapidly relayed the information to any U.S. official we could 
reach. The answer we get back was one country said it was not a 
violation. I will not name it. What I heard from more the U.S. 
side, that it was inconsistent with their understanding. And so 
I think my conclusion from that is that there is a great 
hesitancy to call this a violation particularly since Iran 
quickly backed down, and then in the extension agreement agreed 
to impose more limitations on centrifuge R&D activities at the 
pilot plant.
    Senator Corker. And who actually exposed this?
    Mr. Albright. Who exposed it? The IAEA exposed it in their 
report, their safeguards report.
    You know, one could ask the question--and this, I think, 
also has--maybe it was dealt with. The IAEA did not report it 
promptly. They reported it in their quarterly safeguards report 
which is sent out. Essentially it is a public document that 
first goes out to member states.
    Senator Corker. Why would that be the case? When you have a 
negotiation underway that is obviously of great importance, why 
would it be reported in such a regular fashion versus flagged 
so that people would focus on it immediately?
    Mr. Albright. Yes. I think the IAEA made a mistake. I think 
so. And hopefully they will be more alert to this because I 
think one of the other developments in this is--you know, why 
did this happen? I do not think the negotiators on the Iranian 
side knew that the IR-5 had been fed with uranium from what I 
understand. So you have a situation where maybe the nuclear 
people are not so happy with the negotiations, and they are 
starting to push.
    Senator Corker. And that is the concern, is it not, that 
Iran, unlike our country--the way the decisionmaking is 
dispersed, people that are sitting at the table may not be at 
all involved in some of the covert activities that are taking 
place by IRGC and others. So that leads to other concerns.
    But let me ask. One of you all mentioned that the reason 
this agreement was entered into is there was something for both 
sides, and so that is why this agreement was entered into. Who 
benefits most now from extensions that continue to carry out 
sanctions relief as we continue to go forward? Who do you think 
benefits most?
    Dr. Samore. You know, it is a very good question. My guess 
is that the Iranians are more comfortable with rolling 
extensions because for them the situation is not great, but it 
is tolerable. They are getting some sanctions relief. They are 
able to stabilize their economy, and they are not having to 
make fundamental nuclear concessions, which I think are very 
difficult in their political system to make.
    My sense is that it is more the United States and some of 
the other P5+1 countries that are not comfortable with the 
continuation of the extensions, and the administration has said 
they are pushing for an agreement. And I think the only way to 
get an agreement is to convince the Iranians that we are not 
willing to continue with rolling extensions without real 
progress or at least some demonstrable, tangible partial 
agreement that deals with some of the outstanding issues.
    Dr. Doran. If I could.
    Senator Corker. Yes, sir.
    Dr. Doran. I think there is no doubt that we are on the 
losing end of this. Even if you just look at the JPOA without 
reference to possible secret sites, they still have this R&D 
loophole that allows them to perfect the technology while this 
is going on. So the major leverage that we had was the 
sanctions, and one of the strongest elements of the sanctions 
was the cumulative effect over time. We gave that up. I mean, 
in effect, we took our money out of our retirement fund and had 
to pay taxes on it while they continue on.
    If the JPOA was to collapse, as Dr. Samore said, we are 
going to find ourselves now in a position where they are in a 
position to jump ahead exponentially because they have improved 
their mastery of the technology. And if they have done work 
covertly, as Dr. Albright suggests, then they will be able to 
jump ahead to an extent that is going to alarm us greatly. It 
is very easy to imagine what the argument is going to be. The 
argument is going to be it is better for us to have these 
rollovers, as inadequate as they are, because the alternative 
is going to be to have them really rush to an undetectable 
breakout capability.
    So the way I look at it, they are at first and goal, ready 
to run the play, and we are paying them not to run the play. 
And while we are paying them, they are shifting out their line. 
They are putting heavier guys in, better running backs and so 
on, and so we are going to want to pay more so that they never 
run that play because we feel it is going to be so damaging.
    As a result of that, I think what we have to do is we have 
to steel ourselves up and recognize that if the thing does 
collapse, we are going to be temporarily at least in a much 
worse position than we were in a year ago when this thing 
started. But we cannot accept the argument that we cannot let 
the JPOA collapse because it is going to hurt us so much.
    Senator Corker. I think many of us believe the best way to 
steel us up is for Congress to play a role in stiffening things 
in the event an agreement is not reached.
    Dr. Samore, you mentioned in your written testimony that 
for the Supreme Leader, acquisition of a nuclear weapons 
capability is a critical national objective. Now, if you could 
expand on that. I think most of us hear Secretary Kerry talking 
about the fatwa that we need to rely upon, that you know, this 
is never going to happen. I do not think we have seen that in 
writing. You used to work with the administration. What would 
give you the sense in your written testimony to say that?
    Dr. Samore. Well, when I look at the history of the program 
that began really 30 years ago with covert purchases of 
centrifuge technology from Pakistan and then up through the 
period when they tried to build two large-scale covert 
enrichment facilities at Natanz and Fordow and then the 
weaponization program that took place before 2003 when at least 
most of it was stopped, it seems to me that is an unmistakable 
indication that the Iranian Government under Supreme Leader 
Khamenei was seeking at least a nuclear weapons capability, if 
not nuclear weapons themselves.
    Now, in terms of motivation, obviously I am not reading his 
mind, but my sense is that it is both a desire to defend the 
Islamic Republic against what Khamenei believes is a commitment 
by the United States to destroy the regime and understandably, 
he thinks having nuclear weapons was a good defense against the 
Great Satan. And furthermore, I think the Iranians believe that 
having a nuclear weapons capability or at least that option 
will help them to intimidate other countries in the region and 
assert Iran's dominance. So I think this is a deeply embedded 
desire in his world view and not one that he is likely to 
change as long as he is in charge.
    At the same time, I do think the Iranians have been quite 
cautious, and I do not agree that if the Joint Plan of Action 
collapses, I do not believe that they are going to rush toward 
a nuclear weapon because they are constrained by the concern 
that that might provoke a military attack. Their approach 
toward acquiring nuclear weapons has been very patient, very 
cautious, very stealthy, and I would expect that to continue if 
the Joint Plan of Action collapses.
    Senator Corker. Well, out of respect for the other people 
up here, I am going to stop. I do hope at some point Dr. Doran 
has the opportunity to talk about this effect on Syria policy 
right now--these negotiations. And maybe somebody will ask that 
question. But thank you very much.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I will take the bait, Senator Corker, but first, before I 
ask questions, just a few comments.
    I guess I would draw issue with the fact that Iran's 
economy has stabilized and that they are the net winners under 
an extension of the JPOA. What we know is that they were 
desperately arguing at the last OPEC summit for a reduction in 
output because their economy is dramatically harmed by a 
reduction of world oil prices today. This very day they are 
announcing a 30-percent increase in bread prices for sale on 
the street, a sign that their economy has not stabilized yet.
    Second, I think it is important to note that there are new 
provisions in this extension. They certainly do not go as far 
as many would like, but there are new provisions in this 
extension for more regular inspections, for limitations on R&D 
of new centrifuge technology. And if there is a JPOA or if 
there is not a JPOA, there is still always the potential for 
their to be a covert program. There is no way for us to have 
any degree of assurance, whether we are in negotiations or out 
of negotiations, that they are not doing something that they 
are not telling us about. There is always going to be a limit 
to our ability to see, hear, and know all.
    And lastly, just a note on this critique that Dr. Doran 
raised about flagging American resolve in the region. And this 
is a common critique that by entering into these negotiations, 
we are somehow showing a lack of strength, a lack of resolve, a 
lack of influence. But American foreign policy is not built on 
just showing resolve and strength for the sake of the show. We 
are in the business of actually trying to get outcomes that 
advance American national security interests.
    And if there is a suggestion that there was a resolve 
before 2008 that is not there today, I am not sure that in the 
region you can make the argument that it got us to a better 
place when it comes to the power and strength of Iran in the 
region. During a period of time when we were showing a lot of 
strength by invading a neighboring country, it elevated Iran's 
presence and power in the region. During a period of time when 
we were, I guess, showing resolve and strength by not talking 
to the Iranians and just passing down sanctions, they went from 
a handful of centrifuges to thousands, such that they are only 
a handful of months from breakout.
    So I do not see entering into negotiations as a sign of 
American weakness. I think it is a recognition that the kind of 
resolve that we were supposedly showing prior to these 
negotiations was not getting us anywhere. In fact, it was 
strengthening Iran's hand pretty rapidly and remarkably in the 
region.
    Now to the question that Senator Corker was suggesting, and 
I will probably ask it in a different way than he would. None 
of this happens in a vacuum. We are talking about JPOA and 
extension of it at the same time that we are engaged in an epic 
fight against a menacing terrorist organization in Iraq and 
Syria. Secretary Kerry reiterated today that we are not 
engaging in military coordination with the Iranians, but at the 
same time, we do not have a lot of interest in running at cross 
purposes with them inside Iraq. And ultimately we need to be on 
the same page with them in Syria. We clearly are not today, but 
if we want any type of negotiated political solution there, 
ultimately it will be the Iranians in part that are going to 
bring together the elements of that ultimate agreement or 
transition of power.
    And so I guess my question is this, and I will just ask it 
down the panel. Dr. Samore, you can answer and others can. If 
we walked away from negotiations, if we just said this is it, 
at the end of this JPOA, we are shutting it down, ratcheting up 
sanctions, what is the impact of our policy--of our fight 
against the terrorist threat in Iraq and in Syria? What happens 
if we are all of a sudden in a newly antagonistic relationship 
with Iran that may involve military confrontation, maybe just 
involves increase of sanctions? What does that mean to our 
ability to ultimately get to our goal right next door, which is 
rooting out ISIS?
    Dr. Samore. That is a very good question, Senator, and one 
well worth thinking about if I am right that we are heading for 
a collapse of the JPOA.
    The first thing to say is that I think we are not getting 
very much cooperation with Iran anyway on our strategy against 
ISIS. And in particular, my sense is that the Iranians are 
obstructing to some extent our efforts to persuade the new 
Iraqi Prime Minister, al-Abati, to make some political 
accommodation with the Sunnis because Iran prefers the 
government in Baghdad to be weak and dominated by the Shia, and 
I think they are uncomfortable with our efforts to try to 
create a real unity government. So presumably even if the 
nuclear talks succeed, Iran is likely to continue to oppose 
what we are trying to do politically.
    The other concern I have is that up to now my impression is 
that the Shia militia who operate to some extent under Iran's 
orders have instructions not to harm any of the Americans that 
are present on the ground. I can imagine if the nuclear deal 
collapses, one way the Iranians might try to retaliate is to 
resume attacks on Americans in Iraq, which of course they did 
throughout our entire occupation. So I could easily imagine 
that there would be more tensions between the United States and 
Iran over both Iraq and Syria if the nuclear deal falls apart 
or the nuclear negotiations fall apart.
    Dr. Doran. I wonder if I might, Senator, address what you 
said----
    Senator Murphy. Sure.
    Dr. Doran [continuing]. Your initial comments about the 
resolve and being steadfast.
    The issue is not showing resolve for the sake of resolve. 
The issue is negotiating intelligently. And I think that in my 
view the JPOA has been a ceding of leverage from the United 
States to the Iranians. That is the problem with it. It is not 
that we sat down to negotiate. It is that we had a position of 
strength in 2013 because of the sanctions, a tremendous 
position of strength, and we undermined our own position.
    We also had a very strong legal position. We had the six 
Security Council resolutions that called for zero enrichment, 
and the JPOA gave that away which is a permanent concession. We 
are never going to go back to that. We ceded something 
permanent and powerful legally in return for temporary 
concessions and easily reversible concessions by the Iranians. 
They can change their stockpiles, the amount of enriched 
material that they have in a matter of weeks. We are never 
going to go back to the zero enrichment that we had from those 
Security Council resolutions.
    I think we should have had in our mind, and we should 
develop in our mind now a notion of what reciprocal concessions 
are, a principle such as dismantle for dismantle. We will make 
permanent concessions when you up front make permanent 
concessions. When you agree to the principle that you will 
dismantle centrifuges, then we will give you something 
permanent. Right now, as I read it, it is a complete imbalance. 
And when you look at that, in addition to the other things that 
we are doing in the region like giving Iran a free hand in 
Syria, it amounts to a capitulation in the eyes of our allies.
    Senator Murphy. My time is up. My just last quick point is 
that in the vein of my earlier comments and nothing occurs 
within a vacuum, part of the issue was that we had allies that 
after the election of Rouhani would have been difficult to keep 
together with respect to increased sanctions. It was a moment 
in which we had partners that wanted to talk as well which 
influences that decision.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Let me start out by saying that my view of this whole thing 
is not only less optimistic than my good friend, Senator 
Murphy's, but it is less optimistic than all three of you guys 
put together.
    You talked about the JPOA headed for a collapse. It has 
collapsed. I mean, this last thing that we went through where 
the new things that Senator Murphy talked about that we got--
this is de minimis in the overall scheme of things.
    I think what we need to focus on is where do we go post 
JPOA because in my judgment I think we are there. I do not 
know. In June, are we going to get a few more crumbs and go on 
again? There were a lot of us that were pessimistic about this 
to start with. That pessimism that I had at that time now 
appears to be considerably less than it should have been. I am 
not seeing anything here. So where do we go from here?
    This is the problem I have got. When the first agreement 
was announced and it was a temporary agreement, then it was a 
partial agreement, the thing that struck me is how are we ever 
going to get the genie back in the bottle. And I do not see it. 
Do you think that President Obama is going to get on the phone 
to Mr. Putin and say, hey, we need to get together and do 
something? I would like to hear that conversation because I am 
telling you this thing has deteriorated with the Russians so 
badly that I do not think we are going to get any cooperation 
out of it. The Chinese are not much better. So where do we go 
from here? What are we going to do come June?
    Even my good friend, Senator Murphy, and others say we are 
through here. We have done all we can do. I guess we are going 
to have to go in a different direction.
    What do we do? Where do we go from here? I would like to 
get all three of your ideas in that regard.
    Dr. Samore. Thank you, Senator.
    So obviously we will go back to the status quo ante. I 
mean, we will resume the sanctions campaign. And I think 
Senator Murphy is right that given current oil conditions, we 
probably have a pretty good chance of increasing pressure on 
Iran by persuading our Asian allies to replace oil from Iran 
with oil from Saudi and other oil producers.
    Now, the Iranians presumably will unfreeze all of the 
nuclear activities. And as I said earlier, I think they will 
cautiously try to advance their capability toward having 
nuclear weapons.
    Senator Risch. Or secretly.
    Dr. Samore. Well, yes.
    Senator Risch. Cautiously or secretly.
    Dr. Samore. Look, I think the secret threat is much more 
likely than having them try to break out from declared 
facilities because that would be detected very early. I think 
it would trigger a military attack. The Iranians want to avoid 
that. So they are much more likely to try to pursue secret 
activities.
    And just on that point, I think we have to look--I mean, if 
a deal emerges, we have to look at whether or not or to what 
extent it strengthens our ability to detect covert activities. 
At the end of the day, we are going to be heavily dependent on 
our intelligence, which so far has been superb, along with that 
of our allies, in terms of detecting covert activities. But 
that is how to measure a nuclear deal. Does it enhance our 
intelligence? And I think some of the provisions I have heard 
of which the negotiators think the Iranians will agree to I 
think would give us a greater ability to detect covert 
facilities.
    Senator Risch. Dr. Doran, your thoughts.
    Dr. Doran. Before I answer your question, if I could just 
respond to that statement about the covert activities. I think 
one of the most important things that we need to say publicly 
and often is what Dr. Albright said about the Iranians coming 
clean on all of the possible military dimensions of their 
program because what we are going to find is, if there is an 
agreement or something close to an agreement on the table, we 
are going to be told that it enhances our intelligence 
capabilities, but it is going to be the kind of agreement that 
we have already heard about where we are given purview into a 
limited number of sites and not into other ones. Unless we have 
information that satisfies us about the full system that they 
had in place before these negotiations began, then we are never 
going to have the kind of inspections regime that we need in 
order to really say to ourselves honestly, intellectually 
honestly, that we are getting better intelligence as a result 
of the deal. So that has to be a principle up front. And I have 
noticed the administration moving away from it, and I think we 
have to hold fast on that.
    With respect to your question, I share your pessimism about 
where all this is going. And I think we have to steel ourselves 
up. We have to steel ourselves up to the fact that they are 
going to advance in the short term much faster than we would 
like, and there are going to be deep problems that we are going 
to have in the region, as Dr. Samore said, with respect to ISIS 
in Iraq and in Syria. We have to realize, though, that they 
have deep vulnerabilities. Assad is vulnerable. Hezbollah is 
vulnerable. Their Iraqi allies are vulnerable if we are willing 
to play the game that they are playing. So we have to map out 
what the escalation ladder is going to look like, and we have 
to make sure that we are well positioned to win the escalation 
ladder. And we are. We are absolutely capable of winning that 
if we do not tell ourselves that we are inevitably going to 
lose if it comes to a head-to-head contest.
    Senator Risch. Mr. Albright.
    Mr. Albright. I do not have too much to add.
    I mean, I think certainly I would expect sanctions to 
increase. I would tend to think that they would not race to 
expand their nuclear capability for fear of the repercussions, 
but I think they would build up their capabilities, and I think 
over time they could become quite formidable. In terms of if 
they decided to go for a weapon, how would they do it, I do not 
see it as black and white as some. I think it would depend on 
their calculation at the time, and if they could use declared 
facilities to get away with something before they are detected, 
they may do that. I mean, they may go a covert route. There are 
some real risks there because they have been caught so many 
times. Or they may do both ways. So I think we have to look at 
this very broadly and map out their pathways and try to bolster 
capabilities to prevent those from developing and, more 
importantly, detect them.
    Now, I am a little pessimistic about the post JPA 
environment. I mean, you can see kind of an economic coalition 
involving Russia, China, and Iran aiming to break the sanctions 
from the West. And I am not sure how we would respond to that. 
I think in the back of my mind I would probably think we 
probably better prepare for some kind of cold war in the Middle 
East, and it could get pretty nasty and heated at times given 
the armaments in various factions' hands. So I think it could 
be a very changed environment, very dangerous.
    I mean, I think we could win that war. Maybe that is kind 
of jingoistic in a sense. I think that Iran is not that strong 
ultimately and we are, and our allies in the Middle East are 
very strong. But I think it is not a path that we should go 
down lightly.
    Senator Risch. Thank you. I appreciate all three of your 
remarks.
    I fully concur with you, Dr. Samore, in that history 
teaches us. What we have seen over the last years and years is 
what we are going to get. It is just passive resistance. They 
just keep putting one foot in front of the other using whatever 
tool is there. And anybody who doubts that ought to read the 
passages in the book that President Rouhani wrote about what he 
did while he was sitting at the table negotiating and why he 
did it and how he did it and what they gained from that. I 
think that tells you everything you need to know about where 
they are going to go from here as opposed to something very 
aggressive to just simply put one foot in front of the other 
till they get to where they want to go.
    My time is up. Thank you very much, Mr. Chairman.
    The Chairman. Just one quick observation, then I will turn 
to Senator Kaine. It comes from both remarks of Senator Murphy 
and now Senator Risch. It is true that whether we have the JPOA 
or not, that we do not know about covert operations. But we do 
know that it took us years to identify Qom as a covert 
operation. And because we have a history of this country 
pursuing covert operations in defiance of international law and 
Security Council resolutions and achieved a great deal of what 
they wanted, the possible military dimensions element of this 
is incredibly important to know how far they got to understand 
the other dimensions of what we need to make sure they cannot 
go further. That is a fundamental concern.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    I do know who I am more optimistic or pessimistic about as 
I have listened to the discussion. I am fairly pessimistic 
about an ultimate deal that we would find acceptable I guess.
    I think some of you are too optimistic about Iran is doing 
really well, and in the negotiation we gave up too much, and we 
are on the ropes. I think we are overstating Iran's strength 
and understating our own. I am kind of reminded of the painful 
Virginia example of how General McClellan kept training his 
troops but he kept not wanting to fight because the South was 
just too strong. And Lincoln had to sack him and put in a 
general who knew how to fight. We have got real strengths in 
this situation, and they are not strengths that we have by 
accident.
    Some of the testimony--I read it, and it almost seemed to 
have a little bit of an unreality about it because it was not 
dealing with the energy price issue. The sanctions relief that 
has been given Iran under this agreement in the last year pales 
in comparison--pales in comparison--to what they have suffered 
as a result of energy going from $110 a barrel to $70 a barrel. 
I mean, read the press in the last couple of months about the 
OPEC meetings and about the division obviously between Saudi 
Arabia and Iran and the effect on the Iranian economy of $70 a 
barrel oil and the predictions of many in the industry that 
that is going to continue for a while. They have got to have 
$120 a barrel to meet their budgetary obligations. They are now 
$50 a barrel underneath meeting their budgetary obligations, 
and it is predicted to go on for a while.
    And it is not an accident. The $70 a barrel is caused by a 
number of factors, but a lot of it is American policy. We have 
imposed a sanctions regime on Iran via another means, and it is 
a fantastic one--by an energy policy that is producing more 
energy, that is producing more non-carbon alternative energy, 
that is escalating MPG and CAFE standards in the vehicles that 
we drive so we have to import less. By going from such an 
importer to now moving toward net exporter, we are doing some 
things that will bring them to their knees if we can continue 
to do it.
    That is why I have been a strong supporter of Senator 
Barrasso--and I can say this without Senator Markey here--of 
the exporting of LNG and other things. I think we can use the 
American energy economy to even push this even further, and 
anything we do in the energy space--it does not violate any 
term of the JPOA. It is not doing sanctions that would make 
anybody upset. But we are doing a number of things, and we have 
a number of strengths, and we ought to be proud of them, and we 
ought to play them. And we do not need to be too hang-dog 
about, oh, gosh, Iran is getting the edge on us in 
negotiations.
    Now, I do worry about an ultimate deal. I think we all 
agree a bad deal is worse than no deal. I definitely agree with 
that. That said, I am glad we are continuing to have these 
discussions.
    I do not know. Do any of you think that when we did not 
have a deal at the end of the year, at the end of November, we 
should have just stopped all discussions, and we should have 
scrapped the JPOA? Should that have been our policy? P5+1--we 
go to them and say let us scrap the JPOA right now.
    Dr. Doran. I think we should have, yes. Not scrapped it. I 
think it is very important that we show a willingness to walk 
away from the table.
    Senator Kaine. So you would say we will put sanctions back. 
You go ahead and go back to 20 percent enriched. You stop all 
the inspections we are doing. You think that would have----
    Dr. Doran. No. I would not say it that way.
    Senator Kaine. But that was what the JPOA----
    Dr. Doran. No. I would say that we should warn them that we 
expect them to stay within the JPOA, but that we are going to 
walk away from the negotiations until we get something from 
them for the reason that we are--as I said, we are showing an 
over-eagerness coming to them all the time with deals, new 
suggestions and new suggestions, and we suggest that we can be 
played.
    Senator Kaine. Dr. Samore, should we have scrapped the JPOA 
at the end of November?
    Dr. Samore. No. I supported the extension both because I 
think enough progress has been made to justify an effort to try 
to come to an agreement and because I do not think that the 
Iranians are going to benefit tremendously from a few more 
months of negotiations as long as we continue to keep the 
remaining sanctions in place and as long as they continue to 
freeze their nuclear activities as called for by the JPOA.
    Senator Kaine. Mr. Albright, do you think we should have 
scrapped the JPOA?
    Mr. Albright. No. I supported extending it. But I think the 
question is how many extensions do you have, and I am wondering 
if this should be the last one. Again, 4 months can be a long 
time, but I think that is the key question in my mind.
    Senator Kaine. Another question. Dr. Samore, you were 
talking about--I think it was you who was talking about the 
fact that we have had pretty robust intelligence about their 
program. Certainly the reports about our work together with the 
Israelis in Stuxnet to try to slow them down suggests that the 
intel was pretty good. That intel continues.
    Now we have intel plus some additional inspections. I 
credit what the witnesses have said about the inspections have 
their own limitations. We cannot oversell what these 
inspections are. But the way I look at it is intel plus 
additional inspections gives us the better ability to target a 
military operation if we ever need to. Is that not the case?
    Dr. Samore. Yes, I agree with that. I think that we are 
never going to be able to obtain through negotiations the kind 
of intrusive inspection regime we imposed on Iraq after the 
gulf war. That is just not a realistic objective in these 
negotiations. But my understanding--and I am sure you know more 
than I do from the administration--of the kinds of additional 
access and information they are trying to obtain--I think it 
would enhance our intelligence capabilities. But I want to 
emphasize that at the end of the day, it is going to be good 
intelligence that is much more likely to detect efforts by Iran 
to cheat.
    Senator Kaine. It is my understanding--I wonder if you have 
heard this as well--that the U.S. bombing of Iraq in 1998 was 
more effective because of the inspections that had been imposed 
on Iraq after the end of the gulf war, that the bombing that 
had to be done--there was intel. But intel plus inspections 
gave you a better ability to target military operations than 
even good intel by itself.
    Dr. Samore. Yes, I agree with that. Of course, that was a 
case where the international inspectors really did have a truly 
anytime/anywhere challenge inspection regime. We are not going 
to get that in these Iran negotiations.
    Mr. Albright. I think I would disagree slightly. The 
inspectors in a sense are the boots on the ground, and they do 
provide useful information. We know about the IR-5 because of 
the inspectors on the ground not because of U.S. intelligence. 
They did not know about it. Based on their surprise in the U.S. 
negotiating team, they did not know about it. So I think the 
effort is to have those things work together as effectively as 
possible. But I would say it is not to better our military 
strategy. I mean, it is an extremely sensitive point, and we 
are running into problems now with Iran because they are using 
the excuse that that is the purpose, and the purpose is to 
target and assassinate their scientists. So I think it has to 
be done in the context of, yes, U.S. intelligence is going to 
benefit, but the goal is better detectability of covert 
facilities, greater confidence in that the activities of Iran 
truly are peaceful.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman. Appreciate it.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Thank you for 
holding a very enlightening hearing. It really provides some 
clarity. What I would like to do with my few minutes here is to 
try and provide even greater clarity to this issue, this 
discussion.
    Dr. Albright, you said in your written testimony the 
primary goal of a comprehensive solution is to ensure that 
Iran's nuclear program is indeed peaceful.
    Dr. Samore, was that the goal? Is that the goal of the 
negotiations?
    Dr. Samore. I think the goal of the negotiations is to 
prevent Iran from having a credible nuclear weapons option. So 
that is a similar way of saying the same thing. I would be a 
little more blunt about it because, as I said, I think we are 
dealing with a country that has a deeply rooted desire to 
produce nuclear weapons or at least have the option to produce 
nuclear weapons, and we are trying to achieve negotiations that 
constrain those options, both overt and covert.
    Senator Johnson. We have heard a number of times in 
testimony before this committee that the goal really is to make 
sure that Iran's nuclear program is peaceful.
    It is enormously expensive to enrich uranium. Correct, Dr. 
Albright?
    Mr. Albright. I would not say it is enormously expensive. 
For a country like Iran, it is a huge investment.
    Senator Johnson. And not only just the direct expense of 
enriching it, but look at all the problems they have had in 
terms of sanctions and international----
    Mr. Albright. That is right.
    Senator Johnson. And to have a peaceful nuclear program, 
you do not need to enrich uranium.
    Mr. Albright. I agree.
    Senator Johnson. That is what I want to provide clarity to. 
There is only one reason for Iran to have any kind of nuclear 
program whatsoever and that is to weaponize it eventually. 
Correct?
    Mr. Albright. Not necessarily. I mean, they have a research 
reactor. If the Arak reactor is modified to low-enriched 
uranium, they would have a need. But I think the idea is a 
small enrichment program, not a large one.
    Senator Johnson. Incredibly limited. And there is plenty of 
research going on elsewhere in the world that says you simply 
do not need it certainly when you take into account the price 
they are paying for doing this.
    Mr. Albright. I would agree. If they rejoin the 
international community, they would have more enriched uranium 
at very low costs relative to what they spend.
    Senator Johnson. My point being is that I am as 
pessimistic, if not more so than Senator Risch. I have done a 
lot of negotiating in my business career, and you have to first 
start with reality. You have to start with an achievable goal. 
I would say this negotiation was lost before it even started by 
relaxing what leverage we had from the standpoint of sanctions. 
Even though U.N. resolutions said Iran would have to halt 
enrichment, we basically said, no, you are going to be able to. 
We implied that that was going to be acceptable. What leverage 
do we have? We lost these negotiations before they even began. 
Is that largely correct?
    Mr. Albright. I do not agree with that. I think there is 
still quite a bit of leverage from the sanctions. I do not 
think it is a lost cause.
    Also there was a general agreement--I would not say it is 
consensus, but that these negotiations have to be tried. If 
there is an opportunity where there is a belief that 
significant gains can be gotten, it needs to be done.
    Senator Johnson. But we significantly decreased the 
pressure that the sanctions had in terms of bringing Iran to 
the negotiating table.
    Mr. Albright. I see it a little differently. I think there 
was not enough pressure to get Iran to make these concessions 
from the start. There was enough to get them to the table but 
not enough to get them to concede. With the oil prices going 
down, maybe the pressure will build. Maybe more sanctions, if 
that is necessary, will get them to concede.
    Senator Johnson. But beginning by implying that they could 
continue to enrich uranium, saying that the goal was to ensure 
a peaceful nuclear program, that is just delusional. That is 
simply premising this negotiation on something that was not 
possible. It was an unachievable goal.
    Mr. Albright. I do not think it is delusional. I think the 
decision was made by the administration to accept a limited 
program under tremendous constraints and verification 
requirements in order to achieve the goal. It is also 
predicated on a very long duration, that you want to have, in a 
sense, two technical generations take place while the deal is 
there. You want at least one generation in a normal way of 
thinking. And then you think that you will end up in a much 
better place, and the country will not be trying to break out 
and build a large nuclear weapons capability at that point.
    Senator Johnson. But, Dr. Samore, again, the only reason 
you have uranium enrichment capabilities is for a weapons 
program, by and large. Okay? And Iran wants that so it can 
become a regional power. It is all about power and their role 
in that region. Why would they ever give that up, short of just 
really crippling sanctions that just forces them to give it up? 
We are not at that stage. When we release that pressure, how 
can this ever possibly succeed?
    Dr. Samore. I think the theory the administration is 
operating on is that Iran would accept very limited enrichment 
as a face-saving solution. It remains to be seen whether that 
theory is in fact correct. As I have said, President Rouhani 
would probably take that deal, but he is not in charge. Supreme 
Leader Khamenei is in charge, and I have yet to see any 
indication that he is willing to accept long-term, significant 
constraints on Iran's efforts to develop enrichment for the 
ultimate purpose of having a nuclear weapons capability.
    Senator Johnson. Dr. Doran, do you have anything to add to 
this?
    Dr. Doran. Yes, just a couple things.
    Dr. Samore's statement begs the question, why did we buy 
this theory. The theory that the administration seems to be 
operating under is that if we make concessions to Rouhani, that 
will strengthen his hand in internal contest with the Supreme 
Leader, who is the dictator, and Qasem Soleimani of the Quds 
Force. I think it is a false premise to begin with, and there 
is no evidence at all that that is how the regime is actually 
working.
    I think a better premise is to assume that they have 
consolidated power within the regime, and they have put Zarif 
and Rouhani forward as front men. They have circumscribed their 
authority to a very narrow set of issues, and they have very 
definitely--Rouhani and particularly Zarif have very definitely 
played their hand. And whenever we have put down anything that 
moved outside of their remit, they have told us, no, we cannot 
negotiate. And we have decided to sort of negotiate with 
ourselves and to narrow our own frame of reference down to the 
Zarif frame of reference within his system, and it has been 
extremely debilitating.
    If I could just say one more thing. I agree with Dr. Samore 
that we need to set ourselves up so that we are in the best 
position diplomatically when this thing falls apart to argue 
our position. One of the things that is wrong with what we have 
done by playing to the Zarif faction in the government is that 
we have muddied the waters greatly by continuing to come up 
with new proposals. And by doing it all secretly, we have put 
ourselves in a position where when the thing falls apart, Zarif 
is going to be able to go before the world community, and he is 
going to say the Americans are letting this whole thing fall 
apart over a disagreement about 3,000 or 5,000 or 7,000 
centrifuges. Is this a reason to lose this historic 
opportunity?
    We had a very reasonable position that we started with. We 
need to make that public, and we need to put the coalition 
together that agrees with it, and we need to stick to it.
    Senator Johnson. We need to describe and face reality, and 
we are not doing that now.
    Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    The American people have a right to be angry, angry that 
the administration has declined to provide a Government witness 
for today's hearing. It is time for the administration to 
explain to Congress and to the American people the reasoning 
behind the newest extension of the so-called Joint Plan of 
Action.
    Once again, the Iranians wanted even more time to talk, and 
the President unwisely agreed to it. So I am concerned about 
Iran's ability to continue its deliberate pattern of delay and 
distraction. With the most recent extension of the interim 
agreement is gaining more time, gaining access to billions in 
additional funds held abroad, and gaining relief from specific 
sanctions. Instead of being limited and temporary, as President 
Obama promised, the sanction relief appears to be boundless and 
never-ending.
    It is crystal clear that the sanctions caused overwhelming 
economic pressure and it is that pressure that brought the 
Iranian regime to the negotiating table over its nuclear 
program. The administration has already admitted to the fact. 
Instead of a policy designed to tighten the economic pressure, 
this administration seems to be rewarding the Iranians' 
continued stall tactics.
    Sanctions relief has certainly failed to get a favorable 
final agreement. The past 6 years of failed negotiations have 
shown that we cannot simply talk the Iranian regime out of its 
illicit nuclear program. Instead of endless discussion, we need 
security. It is clearly going to take tougher sanctions to get 
us where we need to be, and that is total dismantling of Iran's 
illicit nuclear program.
    So while the President seems desperate to announce any sort 
of deal with the Iranians, the American people cannot afford a 
bad deal or more years of delay. Without increased pressure 
from America, Iran will continue to enjoy relief from sanctions 
without dismantling their nuclear program.
    So I would call on the President to make good on his 
remarks from the State of the Union, the 2014 State of the 
Union. He promised that he would, quote, ``be the first to call 
for more sanctions if Iran failed to complete an agreement.'' 
He can do two important things right now to keep his word: one, 
reinstate full sanctions. The sanctions relief the 
administration continues to give to Iran removes the urgency 
for them to complete a final deal. It is time to reimpose those 
sanctions now to renew urgency on Iran. And second, he can call 
on Congress to pass a bill to impose new sanctions to compel 
Iran to complete a final agreement before the end of this year.
    So I am ready to increase sanctions and stop Iran from 
building a nuclear weapon.
    My question to the three of you is, could you please 
outline--and nobody has asked this question--where you believe 
Iran's program stands today and the dangers of continuing with 
these rolling extensions? Perhaps, Dr. Samore, we could start 
with you.
    Dr. Samore. Thank you, Senator. Let me just respond 
briefly.
    If the Joint Plan of Action collapses, then I think we will 
have an opportunity to increase sanctions on Iran. But I do not 
think we should kid ourselves that we are in a position to 
force Iran to capitulate anytime soon. We are talking about a 
long, drawn-out process which is likely to take years. And I 
think Iran during that time will continue to gradually, 
cautiously build up their nuclear capability.
    But to answer your specific question, I do not think Iran 
right now has a credible pathway to produce nuclear weapons. It 
is true that on paper they are a couple of months away of 
breakout at their declared facilities, but it is far too 
dangerous for them to try to produce nuclear weapons at this 
declared facilities because it would be detected quickly. And I 
do think the United States or Israel would destroy those 
facilities before that could be achieved.
    I do not think Iran has large-scale covert facilities now 
because I believe our intelligence has exposed the last one 
they tried to build, Fordow. But I think they will try in the 
future.
    So I think we still have time. We are in a desperate 
situation in terms of Iran being on the cusp of being able to 
produce nuclear weapons. I think, frankly, our whole strategy 
over the last 30 years has been to delay the program through 
diplomacy, sabotage, export controls, sanctions, military 
threats, and we have been able to buy time. And I think that 
continues to be our fundamental strategy in the hopes that the 
next Iranian Government will place less value on acquiring 
nuclear weapons.
    Senator Barrasso. Dr. Doran.
    Dr. Doran. On the technical side of things, I cannot add 
anything more to what Dr. Samore and Mr. Albright have said.
    Senator Barrasso. Mr. Albright.
    Mr. Albright. I agree with Gary. I mean, I think we are not 
in a bad place.
    I would also like to add, though, in the fall of 2013 when 
the JPA went into effect, when we did our analysis, we were 
looking at Iran reaching a pretty bad place in about a year 
where they could have had 20,000-30,000 centrifuges, 3,000 
advanced ones deployed, and there was a great deal of worry 
they were building a third centrifuge plant, which under the 
current rules, they do not have to declare to the inspectors 
until it is done. So I think we were heading to a bad place.
    And I think if this deal or the JPA collapses, I think 
there have to be efforts made not only to increase sanctions 
but to try to prevent Iran from going that route again of just 
full-scale deployment of whatever it can get.
    And I agree with Gary. I think they will try the covert 
route again, and we may not detect it. I do worry that our 
intelligence capabilities are not as great as they have been in 
Iran, and I think part of the reason is because Iran is 
learning. We do a lot of work at my institute. I hesitate to 
call it ISIS here, but we do a lot of work at my institute 
looking at illicit procurement. And Iran is getting better at 
hiding----
    The Chairman. For the record, could you define the acronym 
of what that means in your case?
    Mr. Albright. Okay. Institute for Science and International 
Security. We had the name long before they did. [Laughter.]
    Senator Risch. Did you copyright that?
    Mr. Albright. Well, unfortunately, it is an Egyptian 
goddess. So it was not possible. There are a lot of Isises 
actually, including girls named Isis. So it is a complicated 
issue.
    Just to go back to this, on the illicit procurements, they 
are taking steps to hide that it is for a nuclear program 
because a lot of these things are dual-use goods, and they are 
being sought covertly. And so you see that Iran is learning to 
hide things better, and I think they are going to learn to hide 
things better if they do covert activities.
    And that is also why I personally believe that the 
verification side of this deal is critically important because 
those rules can allow you to break through the gaming that Iran 
does. And that, combined with intelligence organizations, can 
lead to a much, much stronger deal.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman. My time has expired.
    The Chairman. Senator Paul.
    Senator Paul. Thank you and thank you to the panel.
    There has been some discussion of optimism versus 
pessimism. And I guess my question would start out to Dr. 
Samore. Do you think it is a significant step forward that Iran 
has reduced all of its 20-percent enriched uranium to a less-
enriched state?
    Dr. Samore. I frankly do not think it is very significant. 
It was certainly an issue that Prime Minister Netanyahu raised 
because it does shorten the time that Iran would need in order 
to produce a significant quantity of weapons-grade material.
    Senator Paul. Would it be more significant if it were not 
an oxide but all the way into fuel rods where it was less 
reversible?
    Dr. Samore. Yes, sir, because it makes it harder to 
reverse. And my understanding is that under this extension, 
they have agreed to convert an additional portion, I think 35 
kilograms of the 75 or so they have in the form of oxide to 
fuel rods.
    Senator Paul. I mean, you can look at the glass half full 
or half empty, but I think that is better than before the 
negotiations.
    Dr. Samore. Well, I agree with my colleague, David 
Albright, that if it were not for the agreed--if it were not 
for the Joint Plan of Action, the Iranian program would be more 
advanced.
    Senator Paul. As a followup to that, Dr. Samore, do you 
believe that Iran is largely in compliance with the interim 
agreement or mostly in noncompliance?
    Dr. Samore. Oh, they are mostly in compliance.
    Senator Paul. Once again, it is optimism versus pessimism. 
Everybody is alarmed at all of the noncompliance. Nobody is 
mentioning any compliance. And I am not here to apologize for 
their behavior, but there are some things and some signs that I 
think should be looked at in an optimistic way.
    Dr. Samore, do you think new sanctions legislation will be 
supported by our allies if we were to pass--this body passed 
new operations at this point?
    Dr. Samore. I think it depends on the exact language. New 
sanctions legislation that imposed a hard deadline and took any 
discretion out of the hands of the administration to impose 
those sanctions would not be supported by our allies.
    Senator Paul. Currently we have a proposal that would say 
that they have to dismantle all their nuclear infrastructure. 
Do you think that would be supported by our allies?
    Dr. Samore. No, because I do not think they believe it is 
achievable.
    Senator Paul. Do you think that if we have sanctions and we 
go forward with bare-knuckle sanctions, hard-core sanctions and 
we ratchet it up--do you think they will be effective if they 
are unilateral and just from the United States?
    Dr. Samore. They will be much less effective. I mean, we do 
have the ability to take unilateral actions that other 
countries--if they are faced with a choice between business 
with the United States or business with Iran, they are 
obviously going to choose the United States in most cases. But 
I agree with the general thrust of your question that our 
sanctions are, obviously, going to be more effective if we have 
agreement from our allies and partners to support it. And that 
is why I have emphasized that we need to manipulate, as much as 
we can, the situation so that Iran is blamed for the failure of 
negotiations and not the United States.
    Senator Paul. This would just be a followup to that for Dr. 
Samore. It is that many have said and some on the panel have 
said, oh, gosh, we should walk away from the negotiations. Any 
discussion is worse than no discussion. I think it is 
interesting just to think about--and I am not supporting this, 
but to think of what if in 5 years from now we still had an 
interim agreement that says they are not going to enrich from 5 
to 20. They still have more centrifuges than we would like, and 
we are still watching them to see whether or not they are 
utilizing and doing more with their centrifuges than we would 
wish to do with them. But to my mind, that would be better than 
no negotiations. It would be better than war with Iran. Once we 
have war with Iran, there will be no more inspections. Once the 
first bomb drops, you will never have another inspection inside 
of Iran.
    So I do not know. I guess I see more optimism in continuing 
to negotiate than I see pessimism even with the imperfections 
of being at an interim agreement because currently while we are 
not getting rid of all enriched uranium, they have agreed in 
the interim agreement not to enrich--what--from 5 to 20.
    Dr. Samore. So I agree with you that we derive benefit from 
the Joint Plan of Action in terms of limits on Iran's nuclear 
program, but I am skeptical that it is going to be possible, 
given politics both in the United States and in Iran, to extend 
this Joint Plan of Action indefinitely without some concrete 
progress. And I guess the main point I am making is if that is 
true that we are not actually able to continue to roll over 
this agreement, it is much better for us if it is Iran that 
loses patience first and reneges or violates the deal than for 
us to be the one.
    Senator Paul. I think you would see a pretty unified 
Congress if they are in noncompliance with the interim 
agreement. If they begin reenriching to 20 percent again in 
defiance of this or add centrifuges in defiance of the 
agreement as well, I think there would be more unity of action. 
There would also be more international, I think, unity of 
action if it were Iranian noncompliance. So I do think that 
that is a factor that we ought to consider in moving forward.
    Thank you for your time.
    The Chairman. Let me just take a final round here.
    So, Dr. Samore, you said in your testimony that in fact--we 
agree the Ayatollah is the ultimate decider here. Is that a 
fair statement?
    Dr. Samore. Yes, sir. I think he has the final word.
    The Chairman. He has the final word. So everything we talk 
about to Rouhani and Zarif are aspirational, but at the end of 
the day, the Ayatollah holds the final word.
    You also, I think in your testimony, either in the written 
or verbal testimony, said that for the Ayatollah, this is about 
regime preservation. Is it not?
    Dr. Samore. Yes, I believe so.
    The Chairman. The question of achieving a nuclear weapon is 
in his mind the preservation of the regime and the revolution 
and the Islamic republic as it exists today. Is that a fair 
statement?
    Dr. Samore. That is how I read his world view. Yes, sir.
    The Chairman. And is that the way you read the world view 
when you were sitting at the White House for 4 years?
    Dr. Samore. Yes, sir.
    The Chairman. So if it is in the Ayatollah's final decision 
and if regime preservation is achieved by acquiring a nuclear 
weapon, what changes that for the Ayatollah?
    Dr. Samore. Well, I do not think he is going to 
fundamentally give up the ambition to acquire nuclear weapons. 
The question is whether we can influence his calculation of 
what risk to take and what cost to bear. And we know from 
history that he has been willing in the past to accept limited 
and temporary restrictions on the program when he thought the 
risk was great enough. I mean, that is the story of the 
agreement that he reached with the Europeans from 2003 to 2005. 
That is the story of why they have agreed to the Joint Plan of 
Action in hopes that would lessen the economic pressure.
    The Chairman. But again, that calculation only changed his 
mind for, one, a temporary period of time and, two, only 
because there are outside influences to try to change that 
calculation. Is that a fair statement?
    Dr. Samore. Yes. In my view the best that diplomacy can 
achieve is temporary constraints. He is not going to make a 
fundamental decision to give up the ultimate objective, but we 
are in the business of trying to buy time. We are in the 
business of trying to delay the program.
    The Chairman. So let us talk about buying time because I 
heard you say it, and I heard Senator Paul say if 5 years from 
now we are in the Joint Plan of Action, that is better than the 
alternative.
    However, buying time also means the Iranians make progress 
on their program. Does it not? Unless you change the nature of 
the joint agreement, you have a continuous ability because the 
R&D exception here is pretty large. So you allow them to 
continue to move forward.
    Dr. Samore. Yes. I think the big weakness in the Joint Plan 
of Action is that it did not have clear provisions about what 
the restrictions were on centrifuge research and development. 
My understanding--and I am sure you can get a more detailed 
briefing on this than I can--is that this most recent 
extension----
    The Chairman. Do not be so sure about that. [Laughter.]
    Dr. Samore. This most recent extension does include clarity 
about a number of the restrictions on research and development, 
and I think that begins to close the loophole. But I agree with 
you that if the Joint Plan of Action is going to be extended 
for a much longer period of time, it is going to have to 
include more clarity on these kinds of issues. Otherwise, we 
will not be confident that the Iranians are not taking 
advantage of that time period to improve their capabilities.
    But also, keep in mind, Senator, if the Joint Plan of 
Action collapses, there is no constraint on their program 
except their fear that they will do something that will provoke 
a military attack.
    The Chairman. Granted. And that was true before the Joint 
Plan of Action as well.
    But the point is buying time from my perspective--and 
inform me where I am wrong--is not endless because buying time 
does not truly freeze everything because unless you do a total 
freeze on the R&D, you have allowed them to move forward 
significantly in a moment in which if it falls apart or they 
choose to move forward, their window has closed.
    Dr. Samore. I agree. Buying time does not solve the 
problem. Even an agreement does not solve the problem because I 
do not have that much confidence that Iran would honor an 
agreement during whatever the lifetime is. I think we would 
have to be very wary that they would cheat, as they have in the 
past on all their nuclear agreements. So we should not kid 
ourselves that there is a permanent solution to this problem as 
long as the current Government in Iran is in power, whatever we 
do is going to be a temporary measure.
    The Chairman. And the final point I just want to raise 
here. You know, our intelligence did ultimately discover their 
underground facilities, but it was built already. It was built 
already, largely built already.
    Dr. Samore. Well, actually I think--we can discuss that in 
a different setting, but I think both Natanz and Fordow were 
discovered very early in the construction process.
    The Chairman. Okay. Well, maybe we did not reveal it 
until----
    Dr. Samore. That is correct, sir. We did not reveal it 
until----
    The Chairman. I have a difficulty understanding how it is 
that--how a critical part of what we are trying to achieve here 
was put on the back burner and seems in these negotiations to 
be increasingly be placed on the back burner, which is the 
possible military dimensions of the Iranian program, because 
from my perspective that should have been one of the first 
things that should have been included in the negotiation 
because if you understand how far they got, then that is part 
of the equation of determining what else you have to consider 
as to what a program is. And we do not know how far they got. 
And it is one of the things that they find most intractable to 
pursue. And that is not just our view. That is the Security 
Council resolution view. And yet, they have not been willing to 
comply with that. And the most recent report of the IAEA 
reiterates that they have made no progress on that.
    Now, in addition to, of course, the concern about the Quds 
Force and the Revolutionary Guard and all of those being 
resistant to exposing their military dimensions, it is also 
problematic for the regime--is it not--to actually come forth 
and come clean about their military dimensions because it 
undermines the basic framework that the Iranians have taken to 
the world that, in fact, this was for peaceful purposes.
    Dr. Samore. My view is that the Government in Iran cannot 
possibly admit the truth, which is that they were pursuing a 
nuclear weapons program before 2003. So I think that the 
administration is seeking to basically defer that issue and 
keep it linked to the continuation of U.N. Security Council 
sanctions in the hopes that once an agreement is in place, the 
Iranians will be willing to be more candid with the IAEA about 
what activity they carried out but never admitting that it was 
for the purpose of producing nuclear weapons.
    The Chairman. Yes. And deferring it to the end allowed at 
any given point in time, if this breaks through, never to have 
come forth as to the possible military dimensions or as to how 
far they got along in that process.
    Dr. Samore. I think very often when impossible issues are 
deferred, both sides--I mean, we are hoping that by deferring 
the issue, it makes it easier to solve. No doubt the Iranians 
are hoping that by deferring the issue, they will not have to 
solve it. But that is often the case in negotiations. The 
issues that cannot be solved are put off.
    The Chairman. Some of these elements remind me of some of 
the concerns I had with North Korea and where we are today.
    In any event, I know Senator Markey has now come for the 
first time. I will recognize Senator Corker and then go to 
Senator Markey.
    Senator Corker. Thank you. I think this has been an 
outstanding hearing. We thank all the witnesses for their 
testimony.
    At the end of the day, if we end up with an agreement--do 
you all agree, by the way, that where we are headed right now 
likely is for an agreement that is less than 10 years?
    Mr. Albright. No, I do not.
    Senator Corker. Do you think there is a possibility----
    Mr. Albright. For longer, yes.
    Senator Corker. And based on the insights that you have, 
where do you think we are headed lengthwise?
    Mr. Albright. I think it could be significantly longer 
than--well, the U.S. position could be significantly longer----
    Senator Corker. I understand that. But where do you think 
ultimately we are going to end up?
    Mr. Albright. I think 15 years. That would be not 
desirable. I would have to take a second look if that is 
acceptable given other conditions in the deal.
    Dr. Samore. Senator, my understanding is that we are 
proposing a 15-year agreement, but after 10 years some of the 
restrictions on their enrichment program would begin to be 
lifted. But I do not know precisely what the details are. I 
think 15 years is a very reasonable period for us to insist on, 
and I hope the administration sticks to that.
    But as I said, whether it is 10 years or 15 years, we 
should not assume that Iran is going to honor any agreement no 
matter how long it is.
    Senator Corker. And we are lifting the restrictions on 
enrichment, which has been sort of the central concern that 
people have that we went beyond the U.N. resolutions. We are 
lifting those and per discussions today after 10 years for what 
reason?
    Dr. Samore. I am not sure I understand.
    Senator Corker. We are lifting restrictions on enrichment 
after 10 years for what reason? I mean, why would we begin to 
go backward after 10 years?
    Dr. Samore. Well, of course, the United States for a long 
time now, going back to the Bush administration, has said that 
once Iran satisfies concerns about its nuclear program, they 
will be treated like any other party under the NPT. And under 
the NPT, there is no restriction on them developing enrichment 
for peaceful purposes. So the idea is to, as I said in my 
written testimony, give the Iranians a way to claim that after 
some period of time, they would be free to develop an 
enrichment program for their nuclear power program, provided 
that it is under IAEA safeguards. As I said, I do not see any 
indication the Iranians are prepared to agree to that, but that 
was the idea of putting that notion forward.
    Senator Corker. And they are obviously pushing for 
something that is far shorter than that.
    Dr. Samore. Yes. What they have said--and the Supreme 
Leader has said this publicly--they want to have a very large-
scale program, 20 times more than what they currently have, by 
2021 when their current contract with the Russians expires to 
provide fuel for the Bushehr reactor. And the Iranians are 
arguing, at least up to now--they are saying they have to begin 
building that bigger capacity now, otherwise it will not be 
ready in 2021. Frankly that is a ridiculous position, and as 
long as they continue to take that, it gives us a very good 
basis for arguing that Iran is taking positions that make an 
agreement impossible.
    Mr. Albright. Yes. I think it also is true that the United 
States has kind of been leaning forward on concessions and not 
getting much of an Iranian response, and I think that is one of 
the reasons why I have concluded that it is really necessary 
for the United States to step back because you do not want to 
be trapped by those exploratory concessions.
    And I would argue that 20 years is what you want. It may 
take the IAEA 20 years, given their experience in Iran, to do 
what is called reach a broad conclusion under the additional 
protocol that the program is indeed peaceful. It is a very 
laborious process, and I would hate to see Iran dramatically 
increasing its enrichment capability until the IAEA is finished 
with its work. And I would not expect that work to be done 
quickly at all, given the level of noncompliance in Iran and 
the complexity of the situation.
    Senator Corker. And I think most of us began with the 
anticipation that we are only talking about a 20-year issue. I 
think as we have talked with folks, as you have all along, that 
period keeps coming back more toward a 10-year period, and we 
know the last offer by Iran was 5.
    By the way, you are beginning to look at a temporary 
arrangement there. We talked about a temporary arrangement 
under the JPOA, but that becomes almost a temporary nature if 
you were to achieve the full outcome.
    Let me just ask you this question. What from your 
perspective--we keep hearing from the administration that 
involvement by Congress will totally jeopardize the 
negotiations. Do you get any indication from the people that 
you talk with, the other countries that we are dealing with, 
that Congress weighing in in some fashion on additional 
sanctions after or just congressional oversight, Congress 
wanting to approve this deal before any funds can be expended 
to implement it--do you get any indication that that is 
something that would stop negotiations or cause people to walk 
away from the table?
    Dr. Samore. Well, I have to be honest. I do think our 
allies are nervous about Congress acting independently of the 
administration and either bringing the talks to an end by 
giving Iran a pretext for walking away or blocking an agreement 
that is negotiated which our allies think is a reasonable 
compromise. So I do think there is some trepidation.
    I am trying to figure out or I would like to try to 
encourage a way for Congress and the White House to work 
together to strengthen the U.S. bargaining position. And I do 
think we are pursuing a common objective here, which is stop 
Iran from having nuclear weapons, and we all recognize that 
sanctions and the threat of sanctions is our most powerful 
instrument. Now, I do not know whether it is going to be 
possible to craft language that satisfies both Congress and the 
White House, but I think it is worth an effort to see if we 
cannot do that, especially because we are entering a critical 
moment here where either there is a breakthrough or this whole 
thing falls apart.
    Dr. Doran. If I could. I do not entirely agree with what 
Dr. Samore said about our allies. I know from my own 
discussions with some of our partners that there is not 
complete happiness with the U.S. position. We do have partners 
who have been working closely with us who feel that we have 
conceded too much in these negotiations.
    Dr. Samore. Sorry. I should have clarified. When I said 
``allies,'' I meant our European allies. I totally agree with 
Dr. Doran that our Middle East allies are very, very 
uncomfortable.
    Dr. Doran. We have at least one European ally that also is 
unhappy with our position.
    Senator Corker. Thank you.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    As is the case with many international issues, at the heart 
of this issue is energy. It happens over and over again. And to 
a lot of people, it is difficult to comprehend how much natural 
gas Iran has. So I thought I would just begin by giving you all 
a few numbers to think about.
    The first number is two. That is Iran's global rank in 
terms of proven natural gas reserves. Only Russia has more 
natural gas than Iran.
    Next number, 400 billion cubic feet. That is how much 
natural gas Iran flares every year. That is enough to supply my 
entire home State of Massachusetts, 7 million people, with 
natural gas for a year. It would be worth more than $7 billion 
if they captured it and shipped it as liquefied natural gas. 
Instead, they simply produce and sell their oil and burn off as 
much natural gas that is coproduced with it.
    Final number, eight. Eight is the number of nuclear power 
plant equivalents in natural gas that gets flared in Iran on a 
yearly basis.
    So this is not a question of their capacity to generate 
electricity for their people at a very inexpensive rate. This 
is natural gas they waste. If they are genuinely interested in 
safe, reliable, dependable, and efficient generation of 
electricity, they have a pretty obvious path to that. And they 
are the last country in the world that needs nuclear power to 
generate electricity. That is just the bottom line.
    So my first question to you is, do you all agree with that, 
that they do not need nuclear power in order to generate 
electricity for the rest of this century, that the proven 
reserves they have for the population that they have is more 
than enough to give them all their generating capacity?
    Dr. Samore. Senator, I was saying before you came in that I 
think the primary purpose of Iran's nuclear program is really 
strategic, I mean, to develop a military capacity under the 
guise of a nuclear power program.
    Senator Markey. Well, how do we use this in our 
negotiations? How do we use the fact that they do not need 
nuclear-generated electricity? How do we use that in the 
negotiations given these realities?
    Dr. Samore. Yes. I think it is hopeless to expect that we 
can persuade them to give up nuclear energy. What we are trying 
to achieve in these negotiations is to limit how they exercise 
their nuclear energy program, and in particular, we want to 
constrain----
    Senator Markey. But we begin, in other words, with the 
premise that they do not need it. Okay? When they say nuclear 
power for electricity, we would not be building nuclear--we do 
not build nuclear power plants in America where natural gas is 
now so cheap. Right? That is why we got to keep the natural gas 
here, and we have got to keep the price low because it is 
backing out coal and backing out others.
    Mr. Doran.
    Dr. Doran. Thanks. I completely agree with what you say. 
One of the more disturbing aspects of the way the 
administration has played its hand is it has created the sense 
that we are on the verge of an agreement with Iran, created the 
sense that the Iranians are really changing strategic 
direction, and as Senator Menendez suggested, creating the 
impression that it is intransigent elements in the United 
States and allies of the United States such as Saudi Arabia and 
Israel that are the real impediment. Instead of putting 
together our own coalition and taking a very reasonable 
position, making it clear to the world, we have created an 
impression out there that we are fighting against elements on 
our own side, which is really just bad negotiating.
    Senator Markey. I will ask you a different question, Mr. 
Albright. We already have tight sanctions on Iran for their oil 
exports. They have got to keep a lot of their oil inside the 
country, and that which they can sell is limited. Now, the 
price of that which they can sell has now dropped from $110 a 
barrel down to $70 a barrel. So on top of the already tight 
sanctions, we have this additional reduction in revenues that 
is now going into a government dependent for 80 percent of its 
revenues on oil revenues. So what role is that going to play in 
these negotiations? How does that affect how they view what 
additional sanctions might be put on them or even this 
additional tightening which is occurring because of the 
collapse of the price of oil with no prospect for it going up 
in the near term?
    Mr. Albright. I think the decreasing oil prices are 
certainly going to be more pressure on Iran to make a deal. 
Whether it is enough----
    Senator Markey. How big of a deal is this, though, this 
collapse of the energy price, given that we are having them 
keep millions of barrels of oil off the market as part of these 
sanctions? So what does it mean that the oil we let them sell 
has collapsed in price? It is down 40 percent. So what is that 
going to mean in terms of their negotiating posture in your 
view, given the pressure that is going to build internally?
    Mr. Albright. I think it is going to be--for the U.S. side, 
it is a development that is certainly going to incentivize Iran 
to make concessions. Whether it is enough--and it is also is 
Iran going to calculate, well, in a year from now, the prices 
will go up and we will get through it. I mean, that is part of 
this.
    Senator Markey. In other words, are they immune 
domestically to this collapse in the price of oil, given the 
very educated population which they have? Can they ride that 
out for 2 or 3 years and have revenues just collapse in terms 
of the role that it is playing in the running of the 
government?
    Mr. Albright. I am not an Iranian expert. So I would say 
that, yes, they can. I mean, if they really do not want to 
deal, they can control their population----
    Senator Markey. Mr. Samore, you seem to have a view on 
that.
    Dr. Samore. Since 2009 when they put down a popular protest 
against the rigged elections that brought President Ahmadinejad 
to power, I think the government has been very effective in 
neutralizing political opposition. So again, I am not an Iran 
expert, but I agree with David that they are probably in pretty 
good shape to continue to ride out these economic difficulties.
    Senator Markey. Can I say this? I believe that Putin and 
the Iranians are going to come under a lot of pressure. People 
might like Putin for what he is doing in the Ukraine. When that 
price of oil is down for a year or 2, I think you are going to 
see a big change in public opinion.
    Can I ask one final, Mr. Chairman?
    The Chairman.Chairman. Of course.
    Senator Markey. Thank you.
    I continue to be interested in the illicit procurement of 
materials made possible by Iran. I have asked the 
administration officials about this too. As a matter of fact, 
in a report this past June, the U.N. reminded us that Iran 
continues to maintain wide-reaching, transnational illicit 
procurement networks. It uses front companies to obtain 
materials on the global market for its nuclear and missile 
programs under the guise of legitimate commerce. These are 
complex operations, and they violate existing U.N. Security 
Council Resolution 1737.
    Where can we tighten controls on the global market to 
thwart efforts by Iran and other likeminded countries to evade 
sanctions and acquire materials for its nuclear and missile 
programs?
    Mr. Albright. One immediate one is it is a vital part of 
the negotiations with Iran, that they commit not to continue 
doing illicit nuclear procurements. And that is one of the 
driving reasons to keep the U.N. Security Council sanctions on 
proliferation-sensitive goods in place. You could create an 
exemption for authorized nuclear programs. Like one was created 
for the Bushehr reactor. But the sanctions stay in place 
because you cannot have any confidence in being able to prevent 
a covert centrifuge plant if you cannot get control over their 
illicit procurements. They are going to have to buy a lot of 
things overseas in order to build such a facility. And so it is 
an urgent priority.
    Beyond that, it is also very important to put pressure on 
China. Iran gets the dual-use goods--they could be made in 
America; they could be made in Germany--via China. So it is 
critical to increase pressure on China to enforce the sanctions 
and its own laws.
    Senator Markey. The chairman has been very generous to me. 
Would you like to say a word, Mr. Doran?
    Dr. Doran. Yes, just quickly. That is one example of the 
importance of the possible military dimensions of them coming 
clean because it is not to have them say mea culpa, we were 
going for a bomb. It is to give us purview onto the procurement 
networks that they have, among other things.
    Senator Markey. And Iran historically has had one of the 
highest prevarication coefficients of any country in the world 
when it deals with any of these nuclear or missile programs. 
And we just have to know that in dealing with them in any of 
these negotiations.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    You have been very gracious with your time, and I 
appreciate it. This is an incredibly important panel. You have 
a lot of expertise both on the scientific elements, as well as 
policy elements.
    I do want to explore with Dr. Samore some of the lines of 
questions on the question of the role of Congress in sanctions. 
What is wrong with--not new sanctions. See that phrase ``new 
sanctions'' suggests we are going immediately to a whole new 
set of things we have not done, number one. But with 
calibrated, prospective sanctions that would be imposed, for 
example, possibly at the end of March if there is no framework 
that has been agreed to, that would say, you know what, you 
have no framework agreed to at the end of March, well, then we 
are going to go back to maybe the oil elements that we have 
basically told countries you do not have to meet the further 
reduced levels. We are going to back to that and/or saying, you 
know, the amounts of money you are getting in relief--that is 
either going to be eliminated or cut in half or something like 
that, something that makes them understand that there are 
consequences for not coming to the conclusions that are 
necessary to actually make a deal that the international 
community could support and signaling to them that this is not 
an endless rolling negotiation which you can just game but 
something that you have to come to grips with in terms of your 
own answers. You may answer no at the end of the day because 
you think that regime preservation, you know, hegemonic goals 
and whatnot are more important. That is fine. But the world 
should know that at that point in time.
    Dr. Samore. Well, it is a very good question.
    I think the issue is whether that would be effective. And 
my concern is that some in Iran might actually welcome such 
legislation because they could very well calculate that will 
put more pressure on the P5+1 to make additional concessions in 
order to get a deal and avoid having the old sanctions imposed 
and then going back to the previous situation. Or the Iranians 
might calculate that if they stand pat and we impose those 
sanctions, it gives them a good reason to back away from the 
negotiations, blame the United States, and make it more 
difficult for us to build the coalition to resume sanctions. So 
I can understand why the administration has a lot of questions 
and concern about whether that kind of approach is going to be 
effective or whether it would actually boomerang and play into 
Iran's hands.
    The Chairman. Let me go back to a question I put to you 
before, and I will open this to anybody on the panel, if the 
Ayatollah has always had the view that the regime is preserved 
by obtaining nuclear weapons, that the Islamic revolution in 
Iran is preserved by having nuclear weapons, that its hegemonic 
goals are preserved by having nuclear weapons, and he is the 
guy who has the ultimate decision, not Rouhani and Zarif, who 
we have aspirations for, but he is the guy who has the 
decision, then if you do nothing--nothing--beyond where you are 
at right now, how does that calculus ever change? It does not. 
You know, after 40 years of public service and negotiating as a 
school board trustee, a mayor, a State legislator, 22 years in 
Congress, I have never seen that something stays the same 
unless some dynamic element is introduced that changes the 
equation. And if everything stays the same, then how is it that 
you change the equation for the Ayatollah?
    Dr. Samore. I have tried to suggest some things that we 
could do, both the United States and our allies, to try to 
change that calculation. One, as I think all of us have said, 
is that we have put enough reasonable ideas on the table. It is 
now time for Iran to show that they are actually prepared to 
move toward us. And my sense is that the negotiations broke up 
in Vienna with the ball very clearly in Zarif's court. So let 
us see whether he can get some additional flexibility from the 
Supreme Leader. I am skeptical but I am willing to wait and see 
whether or not.
    Secondly, as I said, we need to make the threat of 
additional sanctions very credible and tangible to the Iranians 
by visibly working with our allies to prepare for further 
reductions in Iranian oil exports.
    And third, I hope that there is some way that Congress and 
the White House could work together positively to come up with 
legislation that makes the threat of additional sanctions more 
credible for the Iranians.
    But, you know, look, I agree with you, Senator, that it may 
very well be that nothing we do will convince Khamenei to 
fundamentally change his position. I think that is quite 
likely. And in that case, we are talking about how do we put 
ourselves in the best position after the collapse of the Joint 
Plan of Action to increase the sanctions.
    Mr. Albright. I actually would strongly endorse what Gary 
said, that there is a need for Congress and the administration 
to work together, because ultimately it is as simple as coming 
up with a plan B. If you think the deal is going to fall apart, 
you do not want to start your planning the day it falls apart. 
And so I think there is a critical need to think these things 
through now, and I think Congress has an essential role to play 
in that, particularly as the world recognizes they are the ones 
who came up with the sanctions that have gotten Iran to the 
negotiating table.
    I also think that the administration has gotten itself into 
some perplexing boxes. The PMD issue is one to me where if you, 
in a sense, throw the IAEA under the bus by deferring the PMD 
in a sense indefinitely, you have just weakened the credibility 
and the ability of the verification entity to verify the very 
deal that they are negotiating. And you are creating 
precedents. Yes, it is okay, Iran. You do not have to let the 
IAEA go to military sites. Yes, you do not have to let them 
have access to experts that were involved in these alleged 
covert activities. So you are jeopardizing the very 
verifiability of the agreement. And so I think there is the 
need for action to break the administration out of these--I do 
not know what to call it--a dueler well. That is a very old 
term from computer days. They are just caught spinning around 
and around.
    And I would argue that the sanctions issue in the debate 
between Congress and the administration is another one, that it 
has been reduced to rhetoric and threats. And yet, there is an 
incredibly important role that both play in creating the threat 
of sanctions.
    The Chairman. Yes. I agree with you. I do not disagree from 
my perspective. I speak only for myself. Personally I am more 
than willing to work with the administration. As a matter of 
fact, we have done that in the past. The problem is that what 
you hear from the administration at this point is do not worry 
about that. The Iranians know that if it does not move forward, 
there will be more sanctions coming, that Congress will be 
happy to do that. I do not think that that is real enough, 
crystallized enough for the Iranians, or tangible enough to 
know, well, what is it that is coming because if I am in the 
midst of, let us say, an election, I want to have a pretty good 
idea of what is coming, and I will calculate based upon that of 
what I will have to do. Oh, there will be more sanctions. Well, 
how severe? Is it only what I was able to survive? Is it more 
significant than that? You know, I think that just the waiting 
and suggesting that, well, when and if we get there, they know 
that the Congress is more than willing to pursue sanctions has 
no real meaningfulness to it.
    And I think that the other part--and I may be wrong about 
this, but my sense is that the Iranians have a view that there 
is no credible military threat on the table at least at this 
point, that maybe there will be at some point in the future if 
they move forward. But I do not think that they feel that there 
is a present credible military threat which in the back of 
their mind would have to be a consequence. Maybe you are right, 
Dr. Samore, that if it all breaks down and they start moving 
rapidly forward, that the West, either the United States and 
whoever else, might strike them. But right now, they do not 
believe there is a credible military threat.
    And right now, my perspective is that they do not really 
believe that we are going to reimpose any sanctions or produce 
any new sanctions because what they see is the administration 
fending off, which is a different signal than I think what you 
are talking about, saying, no, do not do anything. Just stay 
out of our way. Versus, well, let us do something and let them 
know that in fact there are some real consequences here. And it 
is that dynamic that is, I think, inopportune in terms of 
strengthening our hands in the negotiations at the end of the 
day.
    Dr. Samore. Can I say, sir, I think that it is clear that 
if the talks fail and the JPOA collapses, the Iranians and 
others will try to blame Congress as being the main culprit 
here? And I think it is very important that we take steps that 
take that argument away from them. And so that is why I think--
I completely agree with you--that an approach between the 
administration and Congress that defines and specifies the 
magnitude of the sanctions and yet leaves enough discretion so 
that the administration can accept it is the most effective way 
to show that we are acting in a united way and really deny the 
Iranians the ability to blame Congress for blowing up these 
negotiations.
    The Chairman. I am sure they blame us for putting them in a 
position that already puts them at the negotiations.
    And I heard so often--I have to be honest with you, which 
is one of my own personal senses of calibrating this. 
Unfortunately, at every turn that the Congress led on the 
question of sanctions, administration witnesses consistently 
came before this committee and said that would be a grave 
mistake, that that would break apart the comity that we had 
with the European Union and with other allies, that it would be 
a, disaster. Well, I have to be honest with you. Those 
apocalyptic views never ultimately materialized, and if 
anything, it was the congressional insistence that got us to 
the point where the Iranians felt compelled to be at the table.
    So I think that is part of the equation here as well. When 
you get stiff-armed and you are told that in fact your view at 
the end of the day, which history--at least short-term 
history--has proven to be that we were right and others who 
took that view were wrong, that moving forward, you would hope 
that there would be a more constructive role to embrace the 
opportunity to strengthen the hand of negotiators at the end of 
the day. I just do not think that that is there.
    Senator Corker.
    Senator Corker. Thank you.
    Dr. Samore, you threw out the notion that if we were to 
pass sanctions that would kick in in the event that a deal was 
not reached, it could hasten our side to make a bad deal. Now, 
is that something you just threw out or is that something that 
has been discussed, that some of our partners, if you will, who 
are negotiating are concerned that if Congress acted in that 
manner, it could in fact--while we have some allies who already 
think we have over-given, it might prompt them to do even more. 
Is that something you just threw out at this meeting, or has 
that been discussed by others?
    Dr. Samore. No one has expressed that concern to me. But 
what I worry about is that is how the Iranians will see it, 
whether it is true or not, and that might make them even more 
intransigent because, you know, look, if the Iranians have a 
pessimistic view about the outcome of these negotiations, which 
is what the Supreme Leader says over and over again publicly--
he says I do not mind if these negotiations go out, but I do 
not think they will succeed because I do not think the 
Americans will accept our nuclear program. And I agree with 
him. We are not going to accept their nuclear program. So if 
both sides anticipate the very likelihood that the talks will 
collapse, and they will fail, and the Joint Plan of Action will 
fall apart, then both sides are going to be maneuvering in 
order to cast as much blame as possible on the other side. And 
what I worry is that the Iranians may think that if they are 
patient and they just keep the talks going with little 
concessions here and there, sooner or later, Congress will take 
steps that will end the talks over the President's objection, 
and it will give them a greater ability to avoid additional 
sanctions once the process ends.
    Senator Corker. From the other groups that we are 
associated with.
    Mr. Albright. I think the concern--this has been discussed. 
I think Gary would agree, I guess I will call them trigger 
sanctions that come into effect in a mandatory way, he would 
agree that that is perceived by the Iranians as putting a gun 
to their head. That leads them to put together what I would 
call trigger advancements in their nuclear program. They did 
this last December and January; the parliament said they would 
pass a law that required Iran to produce 60 percent enriched 
uranium if new sanctions were imposed. So there is worry about 
that, that the trigger sanctions could backfire.
    And then there is also the worry that in that environment 
the Iranians would start resisting in the negotiations. And so 
I think that that is a concern that has to be addressed.
    I think what I am talking about, though, is sanctions 
discussions and plans that are not necessarily required to take 
effect but would give the President the authority to use those 
sanctions at least through this period where there is 
uncertainty about the future of the JPA.
    Senator Corker. Of course, he has a lot of leeway in that 
regard without us doing that. So I understand it is a tilt. But 
again, he can put a lot of sanctions in place without us being 
involved in any way.
    Let me ask you this. What would be your perceived response, 
without having a great deal of time to think about it, if we 
pass legislation that said that the implementation of this 
agreement could not be--the money would be withdrawn to 
implement it unless Congress approved it? So we are not saying 
what sanctions would be put in place down the road, but we are 
saying that unless Congress approves this deal, it cannot be 
implemented. What do you think the impact would be on the 
negotiations if something like that were to pass both the House 
and Senate?
    Mr. Albright. I think it would be negative on the Iranian 
side because they already do not trust the United States to 
take away the sanctions.
    But I must say I am torn because I think more congressional 
oversight on this problem is urgent. We are struggling to know 
what is even being discussed and you are Members of Congress. 
So I think the oversight is necessary, and whether it is the 
Congress approving or the Senate approving the deal or not, I 
think that something has to happen.
    And I think this is a mistake the administration is making. 
I did work a lot on first opposing the agreed framework and 
then being convinced to support it. The fact that the Congress 
was not on board was a severely corrosive factor. And so I 
think it is important the administration work with Congress to 
make sure this is a united effort and a deal that is supported.
    Dr. Samore. I just want to say I think one of the big 
obstacles to the White House and Congress reaching agreement on 
language of legislation is what would exactly constitute an 
acceptable deal because right now my sense from letters from 
Congress and legislation and so forth it is setting out terms 
and conditions for an agreement which the administration does 
not think they can achieve through this negotiation. And 
without saying who is right or who is wrong, I think as long as 
there is such a divergence in terms of what would constitute an 
acceptable deal, I think it is difficult to come to an 
agreement on whether Congress should put itself in the position 
of approving an agreement.
    Of course, the fact is if the administration comes forward 
with a bad deal that accepts anything close to having Iran with 
a significant enrichment capability, I would expect Congress to 
overrule that deal. I mean, Congress would pass legislation 
that would make it impossible for the President to waive 
sanctions. And I think that is a real constraint on what the 
administration thinks it has to negotiate in order to pass 
political muster in this town.
    Senator Corker. But having it put in place in advance of 
completing negotiations that Congress had to approve the deal 
you believe would have a negative effect on negotiations.
    Dr. Samore. I am not sure if it would have a negative 
effect on negotiations, but I think the administration would be 
reluctant to accept such legislation when there is such a 
divergence between what they think a deal is going to look like 
and what Congress has expressed as the essential elements of a 
deal, including all the things we are talking about, that there 
be a dismantlement of Iran's illicit nuclear program, the 
question of a possible military dimension has to be resolved in 
its entirety. I mean, those are not things that are likely to 
be in the deal that is currently being negotiated.
    Senator Corker. I would say from their perspective, though, 
then people in the Senate and House would be firing with real 
bullets as far as whether they approved the deal or not. And I 
would say that while people can be bellicose and sometimes over 
the top, that people sitting there and actually deciding yea or 
nay whether this whole thing falls apart could cause people--
looking at it from the administration's perspective if they 
wanted to actually view Congress this way, could cause people 
to be more responsible than they think. Do you understand what 
I am saying? From their perspective. I think responsible is 
getting a deal that does not lead to them having nuclear 
capabilities, but I do not think it would go just in one 
direction.
    Let me just ask one last question. What are the economic 
drivers that--over time people worry about this sanctions 
regime falling apart. What are the biggest elements that are 
driving some of the other countries to want to go ahead and let 
this dissipate so they can continue to do business? Is it the 
oil itself that comes from Iran? Is that the biggest driver? 
What do you think is the biggest issue for China and Russia and 
some of the other countries?
    Dr. Samore. Well, I think it is both oil but also it is the 
Iranian market. I mean, when the Joint Plan of Action was 
originally agreed, there was a real question about whether 
limited sanctions relief would lead to a much broader erosion 
of the sanctions that are in place. And the Iranians certainly 
tried as hard as they could to lure companies to Tehran and 
offer them all kinds of deals. And so far, I think to the 
credit of the United States and its allies, the governments 
have been able to restrain companies from breaking the 
remaining sanctions, including limits on oil purchases, with 
the one exception of China where we have seen some important 
slippage especially in purchases of condensate. And I think 
that is an important issue for the administration to 
demonstrate that it can get China back in the box. But the 
other big oil customers have all continued to keep their 
purchases from Iran at the levels they were at when the Joint 
Plan of Action went into effect.
    So we have been able to demonstrate so far that the Joint 
Plan of Action has not eroded the overall regime. And of 
course, the Iranians will keep trying and companies will still 
be tempted, and we will have to continue to jawbone and apply 
sanctions in order to make sure that that does not happen.
    Senator Corker. And I will stop with this. I know the 
chairman needs to go and I do too. You all do too.
    We have companies here in our own Nation that would love to 
export condensate--right--and are prohibited from doing that 
today. Just on that element, condensate, let us face it, is a 
byproduct of exploration. We wish it would have been part of 
more closely--you know, we did not pay enough attention--our 
Nation did--when we were negotiating the deal with Iran in the 
first place. But what if we supplanted that condensate need for 
countries like China and other places? Would that have an 
effect on us being able to keep the regime together?
    Dr. Samore. I am strongly in favor of the United States 
exporting energy to not only China but also our Asian allies. 
If we are asking countries to shift their purchases, even if 
there are other oil and other products from the Saudis and 
others, I think it is very important that the U.S. export its 
energy, both oil and gas.
    Senator Corker. Thank you.
    The Chairman. Can you direct exports? It is a global 
market. Can we take and say we are going to only want these to 
be sold to our allies, whether they be Asia or anybody else?
    Dr. Samore. Well, I mean, my understanding from talking to 
people who have recently been in China, also Korea and Japan is 
that they would love to buy more energy from the United States 
because they see it not only as price competitive but also a 
much more secure and reliable source than most of the Middle 
East countries. So I think the market would take care of it if 
we made it available.
    The Chairman. You think the market would take care of it, 
that it would not go just to the highest bidder. You mean the 
businesses would now move to a different philosophy of what is 
the very essentials of the economics debut, which is they 
extract, do the processing, that cost them X number of dollars. 
And normally they want to go and sell it to the highest in the 
marketplace.
    Dr. Samore. I think U.S. companies would be able to sell at 
a profit U.S. energy resources to Asia, yes.
    The Chairman. Yes, but would that be the highest 
marketplace? What if China is willing to pay $10 per barrel 
more than Japan or South Korea? Do you really think that the 
energy companies will say, well, we are going to forego the 
extra $10 per barrel to sell it to Japan and South Korea?
    Dr. Samore. No, I do not expect them to do that. But if 
there is a price bidding process, then I think the Japanese and 
the Koreans might look to match the Chinese price.
    The Chairman. Under those circumstances, yes, I could see 
it.
    But this is part of the problem. I do not know. Maybe if 
you extract it from Federal lands or waters, you could put a 
condition that it has to be sold to certain allies, certain 
regions. But that is one of my concerns about--I do not have an 
ideological opposition to using energy as long as you can use 
selling domestic energy internationally, but the question is in 
an international market, it goes to the highest bidder. That is 
our big challenge. So how does one direct it for your strategic 
purposes at the end of the day, whether that be Asia or 
Ukraine, for example?
    Dr. Samore. Well, of course, we do have a very large 
strategic petroleum reserve, and I think that I would be in 
favor of using that for foreign policy purposes. I cannot say 
whether this is the right one, but I think we should think 
about using----
    The Chairman. That is a little different than just 
commercial extraction.
    One last thing. I am exploring your idea. I am not in 
opposition to it. I am trying to figure out how you get to 
where you want to be.
    Go ahead.
    Senator Corker. Well, if I could, just on this one issue of 
condensate. It is my understanding--and I could be way off 
base--that the way this actually works is that they enter into 
long-term contracts for the delivery between companies and 
China. And I think it is not quite like the petroleum market as 
it relates to this. It is a little different in that this is 
used in petrochemicals and other kinds of development. And I 
think there maybe is a little bit better way of having an 
impact on China in this particular regard than maybe with some 
of the other things we talked about with LNG and others.
    The Chairman. If we are talking only about condensates, 
Commerce has allowed some condensates to be sold, and they seem 
to be pretty reluctant towards limiting any further 
condensates. See, I thought we were talking about much more 
than condensates. But in any event, I am sure that the soon-to-
be chairman is going to explore that as we move forward.
    Thank you all for your testimony and incredible sharing of 
time. As you can see, there is a real interest by the ranking 
member and myself, as well as other members, to go to the depth 
of trying to understand the dynamics here.
    My final comment is--well, one is that this record will 
remain open until the close of business on Friday.
    And secondly is this is a traditional challenge between the 
role of the executive branch and the legislative branch. I am 
sure the executive branch would never want the legislative 
branch to necessarily involve themselves with authorizations of 
use of military force. Some of us believe that that is an 
appropriate and needed action by the Congress when we are 
engaging our sons and daughters to be sent abroad. And by the 
same token, on this question it was Congress' failure to get 
engaged that led us end up having to face the challenges of a 
nuclear-armed North Korea. So there is a balance here at the 
end of the day, and we have got to figure out how we get that 
balance right for what I do believe is our collective vision of 
not having Iran have nuclear weapons but about how that is 
frameworked in a way that makes it less likely than more likely 
is a concern many of us.
    But with the thanks of the committee for all of your 
insights, this hearing is now adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Graphs and Annex Submitted With David Albright's Prepared Statement
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

       Annex: Provisions in a Long Term, Comprehensive Agreement

    The negotiations for a long-term deal are highly detailed and 
secret. Many technical provisions are being studied and proposed by the 
P5+1 negotiators, particularly U.S. officials. Iran has resisted many 
of these proposals and rejected most proposals that would lead to 
significantly lengthened breakout times. It is unclear if the 
differences can be bridged over the next several months.
    Nonetheless, it makes sense to review a set of provisions that can 
form the basis of a comprehensive solution able to protect adequately 
U.S. national security interests. This list has been developed based on 
a range of information and attempts to incorporate information about 
the provisions being discussed during the negotiations. However, there 
is no attempt to represent the U.S. or its allies' positions. For more 
detail about the provisions presented here, the reader is referred to 
the ISIS Web sites.
    This list of provisions is an update from lists prepared by ISIS in 
December 2013 and January 2014. The changes from those early lists 
reflect known concessions made by the parties to the negotiations, new 
developments not foreseen a year ago, or efforts to seek compromises. 
In addition, many of the provisions work together, such as limiting the 
number of IR-1 centrifuges, leaving only a small number of advanced 
centrifuges, mandating significantly reduced stocks of LEU, and 
removing or destroying centrifuges and associated equipment. As such, 
while specific limits can be set individually as below, when key 
provisions are considered in their entirety, these provisions may each 
differ from the cases stated below. However, the goal of a one year 
breakout would still be obtained.
    The provisions are organized in two broad categories, those without 
duration and those with a duration of 20 years. The latter could be 
subject to a phasing, such as after a fraction of the 20 years has 
passed, that would lead to gradual relaxation of the conditions or 
replacement by others. However, phasing is not included in this list.
                 conditions without a defined duration
  <bullet> The Arak reactor complex will be modified to use enriched 
        uranium fuel and a smaller core structure, or calandria. The 
        reactor's power will be reduced from the level currently 
        planned; i.e., 40 megawatts-thermal, and the reactor's heat 
        removal system will be modified to fit that lower power rating.
  <bullet> Iran will not reprocess any irradiated fuel or build a 
        facility capable of reprocessing.
  <bullet> Iran will not enrich above 5 percent in the isotope uranium 
        235, and will not produce stocks of enriched uranium that 
        exceed in quantity the needs of its civilian program, noting 
        that it has long term LEU fuel delivery agreements with Russia 
        and would be expected to have additional ones with foreign 
        reactor vendors after the conclusion of a comprehensive 
        solution.
  <bullet> Iran will commit not to procure goods for its nuclear 
        programs abroad in a manner that is considered illicit 
        (``illicit nuclear commodity trafficking or trade'').
     conditions and parameters with a defined duration of 20 years
  <bullet> Iran will have only one enrichment site, the one at Natanz, 
        and it will utilize IR-1 centrifuges. The number installed will 
        be consistent with a one year breakout timeframe. Considering 
        significant reductions in LEU stocks, the number of allowed 
        centrifuges could reach 4,000-5,000 IR-1 centrifuges.
  <bullet> The Fordow enrichment site will be shut down or converted 
        into a non-centrifuge-related site.
  <bullet> Centrifuge research and development will be limited to 
        centrifuges equivalent to the IR-2m centrifuge. The number of 
        centrifuge cascades will be limited in number, and no cascade 
        will have more than a few tens of centrifuges. In all cases, 
        the number of advanced centrifuges in a cascade would be far 
        lower than the amount to be used in a production-scale cascade.
  <bullet> Major centrifuge component manufacturing and storage 
        locations will be limited in number and identified.
  <bullet> Centrifuge assembly will occur only at the Natanz enrichment 
        site.
  <bullet> In the case of the IR-1 centrifuges, centrifuge 
        manufacturing would be limited to the replacement of broken 
        centrifuges, if no spares exist. For example, in the case of 
        IR-1 centrifuges, a stock of many thousands of uninstalled 
        centrifuges would be stored and then drawn upon to replace 
        broken ones. Thus, Iran would agree not to build any IR-1 
        centrifuges until this stock is exhausted.\1\
  <bullet> When the long-term agreement takes effect, centrifuges and 
        all associated cascade equipment in excess of the cap would be 
        turned off, so that no centrifuges are operating and the 
        cascades are not under vacuum. Centrifuges would be turned off 
        in a controlled manner so as to limit centrifuge damage. Excess 
        centrifuges and the cascades containing them would be disabled 
        in a manner so as to require 6 to 12 months to restart disabled 
        cascades. Based on public information about the negotiations, 
        excess centrifuges would not be destroyed but rather equipment 
        from the cascades and centrifuges would be removed from the 
        centrifuge plants making restart very time-consuming. To ensure 
        adequate build-back times, certain centrifuge or cascade 
        equipment would be selectively destroyed. Any storage of 
        equipment or uninstalled centrifuges would be subject to 
        rigorous IAEA monitoring.
  <bullet> Iran will not build any conversion lines that can convert 
        enriched uranium oxide into hexafluoride form.
  <bullet> LEU stocks will be limited, based on a realistic civil 
        justification.

      <all>  With regard to near 20 percent LEU, Iran will not possess 
            any such LEU in hexafluoride form and its total stock in 
            unirradiated oxide form, including in fresh fuel elements 
            and assemblies and scrap and waste, will be less than the 
            equivalent of 100 kg of near 20 percent LEU hexafluoride. 
            During the life of the agreement, this unirradiated stock 
            will be further reduced to below the equivalent of 50 kg of 
            near 20 percent LEU hexafluoride.
      <all>  Iran will not possess more than the equivalent of 500 
            kilograms of unirradiated, less than 5 percent LEU 
            hexafluoride. Iran's practical needs for LEU, such as in 
            the modified Arak reactor, would require the use of a 
            certain amount of LEU in a fuel fabrication pipeline. This 
            amount would be determined as part of the agreement. Excess 
            LEU will be shipped out of Iran.

  <bullet> Uranium mining, milling, and conversion facilities will be 
        limited in throughput to the actual need for enrichment or 
        other mutually agreed upon use.
  <bullet> Iran would ratify the Additional Protocol and accept a range 
        of supplementary verification measures, including but not 
        limited to,

      <all>  More detailed declarations of and greater access to 
            uranium supplies and sources;
      <all>  Detailed declarations of the number of centrifuges made in 
            total, its total used and accumulated stocks of raw 
            materials and equipment needed to build and operate 
            centrifuges.

  <bullet> Prior to the relaxation of major economic or financial 
        sanctions, Iran will address the IAEA's concerns about past and 
        possibly ongoing nuclear weapons or nuclear weapons-related 
        work.
  <bullet> United Nations Security Council sanctions on proliferation 
        sensitive goods will continue throughout the duration of the 
        agreement. At the beginning of the period of the comprehensive 
        solution, a verified procurement channel will be established 
        for items needed in Iran's nuclear programs. The list of items 
        will be established by mutual agreement and will include major 
        nuclear facilities, nuclear components, nuclear and nuclear-
        related dual-use goods, and other sensitive items such as those 
        on watch lists. Procurements of listed items outside this 
        channel will be banned and considered illicit nuclear trade.
  <bullet> Iran will not export or otherwise transfer nuclear 
        materials, reactors, centrifuges, reprocessing equipment, other 
        nuclear facilities or equipment, or the means to make such 
        equipment or facilities to any state, company, or other 
        entity.\2\
  <bullet> By the end of the period in which the comprehensive solution 
        will be in force, Iran will implement an export control system 
        in line with the requirements of the four main export control 
        regimes (lists and guidance) and submit a comprehensive report 
        to the 1540 Committee on Iran's implementation of the 
        resolution. Iran will also commit not to export or otherwise 
        transfer reprocessing or enrichment technologies or goods to 
        any state or non-state actor after the comprehensive solution 
        period ends.

----------------
Notes

    \1\ Broken centrifuges will be replaced with centrifuges of the 
same type. This should mean, for example, that an installed IR-1 
centrifuge would be replaced with an IR-1 centrifuge of the same design 
and enrichment capability as the one removed. A broken centrifuge is 
defined as one that has a rotor assembly incapable of spinning under 
power and cannot be repaired.
    \2\ A model condition developed by ISIS: The state of concern 
agrees not to transfer to any state or entity whatsoever, or in any way 
help a state or entity obtain, nuclear weapons or explosive devices, or 
components of such weapons; nuclear material; nuclear know-how or 
technology; or equipment, material, goods, technology designed for, 
prepared for, or that can contribute to the processing, use, or 
production of nuclear materials for nuclear weapons or in sanctioned 
nuclear programs.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
